<html>
<title> - UNDER FIRE: DOES THE DISTRICT OF COLUMBIA'S GUN BAN HELP OR HURT THE FIGHT AGAINST CRIME?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 UNDER FIRE: DOES THE DISTRICT OF COLUMBIA'S GUN BAN HELP OR HURT THE 
                          FIGHT AGAINST CRIME?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2005

                               __________

                           Serial No. 109-40

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-473                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2005....................................     1
Statement of:
    Lott, John R., Jr., Ph.D., resident scholar, American 
      Enterprise Institute; Robert A. Levy, senior fellow in 
      COnstitutional Studies, the CATO Institute; Robert Peck, 
      president, Greater Washington Board of Trade; Pastor H. 
      Lionel Edmonds, co-Chair, Washington Interfaith Network; 
      Sandra Seegars, District of Columbia resident; Tyrone 
      Parker, executive director, Alliance of Concerned Men; and 
      Francine Lowe, District of Columbia resident...............    77
        Edmonds, Pastor H. Lionel................................   109
        Levy, Robert A...........................................    92
        Lott, John R., Jr., Ph.D.................................    77
        Lowe, Francine...........................................   133
        Parker, Tyrone...........................................   129
        Peck, Robert.............................................   105
        Seegars, Sandra..........................................   111
    Williams, Anthony, Mayor, the District of Columbia; and 
      Charles H. Ramsey, chief of police, Metropolitan Police 
      Department.................................................    41
        Ramsey, Charles H........................................    47
        Williams, Anthony........................................    41
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    30
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    25
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Edmonds, Pastor H. Lionel, co-Chair, Washington Interfaith 
      Network, prepared statement of.............................   110
    Levy, Robert A., senior fellow in COnstitutional Studies, the 
      CATO Institute, prepared statement of......................    94
    Lott, John R., Jr., Ph.D., resident scholar, American 
      Enterprise Institute, prepared statement of................    81
    Lowe, Francine, District of Columbia resident, prepared 
      statement of...............................................   134
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........    12
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia:
        Information concerning fatal shootings...................    57
        Prepared statement of....................................     8
    Parker, Tyrone, executive director, Alliance of Concerned 
      Men, prepared statement of.................................   131
    Peck, Robert, president, Greater Washington Board of Trade, 
      prepared statement of......................................   107
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   151
    Ramsey, Charles H., chief of police, Metropolitan Police 
      Department, prepared statement of..........................    50
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    35
    Seegars, Sandra, District of Columbia resident, prepared 
      statement of...............................................   114
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   152
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    15
    Westmoreland, Hon. Lynn A., a Representative in Congress from 
      the State of Georgia, prepared statement of................    39
    Williams, Anthony, Mayor, the District of Columbia, prepared 
      statement of...............................................    44

 
 UNDER FIRE: DOES THE DISTRICT OF COLUMBIA'S GUN BAN HELP OR HURT THE 
                          FIGHT AGAINST CRIME?

                              ----------                              


                         TUESDAY, JUNE 28, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the subcommittee) presiding.
    Present: Davis of Virginia, Burton, Cannon, Duncan, 
Marchant, Westmoreland, McHenry, Dent, Waxman, Cummings, 
Kucinich, Clay, Watson, Van Hollen, Ruppersberger, and Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Keith 
Ausbrook, chief counsel; Rob White, press secretary; Drew 
Crockett, deputy director of communications; Shalley Kim, 
professional staff member; Teresa Austin, chief clerk; Sarah 
D'Orsie, deputy clerk; Leneal Scott, computer systems manager; 
Phil Barnett, minority staff director/chief counsel; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Rosalind Parker, minority counsel; David Rapallo, 
minority chief investigative counsel; Earley Green, minority 
chief clerk; Jean Gosa, minority assistant clerk; and Chris 
Traci, minority research assistant.
    Chairman Tom Davis. The committee will come to order. I 
want to thank everybody for joining us today, as the Committee 
on Government Reform takes a look at the District of Columbia 
law banning handguns and most automatic weapons.
    In 1976, 3 years after Congress passed the Home Rule Act, 
the District of Columbia Council passed the Firearms Control 
Regulations Act, a law prohibiting the possession of 
unregistered firearms and banning the registration of all 
handguns, automatic firearms, and high-capacity semi-automatic 
firearms. The District's ban on handguns makes it illegal for 
anyone to own a handgun unless he or she is a police officer 
who has owned a gun registered prior to 1976. Sales of firearms 
are similarly restricted. This makes the District's gun laws 
among the strictest of any jurisdiction in the Nation.
    Various lawsuits have been filed in recent years 
questioning the Constitutionality of the D.C. gun law under the 
second amendment. The courts have upheld the ban, finding it is 
within the District's power to regulate firearms. Meanwhile, 
legislation has been introduced in both the House and Senate to 
overturn the District's gun ban.
    I am a strong supporter of Home Rule. For our system of 
federalism and democracy to work, States and localities need to 
be able to make their own decisions, even if some of us think 
they are bad ones. I believe the citizens of the District, like 
residents of any city across the Nation, are best served when 
their locality's elected representatives are free to decide how 
to manage the city's affairs. After all, the District is 
certainly not the only city in America with a ban on handguns. 
New York has a restrictive handgun law; so does Chicago; so do 
smaller towns such as Morton Grove, Wilmette, Evanston, and Oak 
Park, all in Illinois.
    I believe there is room in the Congress for debate on the 
merits of some of the Nation's gun laws, but I also believe the 
appropriate place for debate on the District's gun laws is in 
the chambers of the District of Columbia City Council.
    Congress, as outlined in the Constitution, does retain 
final say over the city's legislative decision. But that is a 
power we should, and do, use only rarely. I also believe the 
District would be better off if my colleague Eleanor Holmes 
Norton would cast votes on the floor of the House of 
Representatives. We are, of course, working to build support 
for legislation to fix that, but that is a topic for another 
hearing--July 15th, for those taking notes.
    I personally believe that Federal legislation seeking to 
overturn D.C.'s gun laws are an unnecessary and potentially 
dangerous assault on Home Rule. I personally believe the net 
result could be a less safe capital city. But this committee's 
agenda is not about my personal beliefs. The issues raised in 
this debate demand our time and demand our attention. The 
safety of D.C. residents demands it.
    Today's hearing features a compelling array of witnesses 
who have differing opinions on the District's gun ban. I called 
this hearing because the District's gun ban not only raises 
Constitutional concerns among some observers, but it is worth a 
look to see if the ban is working as intended. Does the ban 
effectively keep dangerous weapons out of the hands of 
criminals? Would repealing it lead to a spike in violent crime 
and homicides? Or, as one of today's witnesses argued, would 
more guns equal less crime?
    We are pleased to once again be joined by Mayor Tony 
Williams of the District of Columbia and the city's Police 
Chief Charles Ramsey to hear the city's perspective on the 
current gun laws. In addition, the committee is fortunate to be 
joined by an array of witnesses, including residents of the 
District of Columbia and representatives from both national 
think tanks and community organizations from all sides of the 
issue, and we appreciate an informative discussion on this.
    Congress has acted on this in the past without any kind of 
hearings or anything, and we felt this was appropriate to move 
forward today to try to build a record so we can get the city 
on record and we can get proponents and opponents, both sides, 
to be able to state their case for the public record.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.001
    
    [GRAPHIC] [TIFF OMITTED] T2473.002
    
    Chairman Tom Davis. I would now recognize the distinguished 
delegate for the District of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. And I thank 
you especially for this hearing that is of great importance to 
D.C. elected officials and residents. I particularly appreciate 
the collegial conversation between you and me, Mr. Chairman, 
which resulted in today's hearing and your working with me to 
select and secure today's witnesses.
    The current effort to repeal D.C.'s gun safety laws is the 
second consecutive attack on gun safety and on Home Rule in as 
many years, and the fourth attack on our gun laws since I have 
been a Member of Congress, thanks to the National Rifle 
Association.
    I want to begin by making an important announcement. 
National organizations can and do get changes in D.C. laws, but 
not by coming to Congress. To its credit, Congress, in almost 
30 years of Home Rule, has overturned D.C. law only very 
rarely. Our local laws can be changed the way yours are: by 
showing the minimum respect our elected officials deserve of 
lobbying the appropriate body.
    If I may, I want to note that what is truly amazing about 
the gun safety repeal bill is that any Member of Congress would 
desire to introduce gun and pawn shops here, which could then 
sell assault weapons like AK-47s in the capital of the United 
States in the post-September 11th era, while we still have 
checkpoints in our streets stopping people to see if they are 
terrorists.
    Who will take responsibility for a bill that would allow 
legal ownership of an M-16 by a person who might later go to 
the roof of an office or an apartment building and take aim at 
Federal targets, visitors, and officials? Any security 
professional will tell you that official Washington has as much 
to fear from the radical repeal in this bill as residents of 
the District of Columbia.
    My only regret about a hearing on repeal is that any 
elected official or any police chief of any local jurisdiction 
in our country today would have to suffer the indignity of 
appearing before the U.S. Congress on a matter of profound 
local concern. The most fundamental guiding democratic 
principle of the founders of our country was local control, 
first from England and then, because they were deeply 
principled, they denied to the national government that they 
themselves created any control of the laws of local 
jurisdictions.
    The entire reason for our founding revolution was that 
democracy demanded accountability running from the electorate 
to those whom they elected. The framers deeply believed that 
democracy required that citizens must be able to judge their 
elected officials by keeping or removing them.
    No sponsor of this bill could be removed or rewarded by the 
voters of the District of Columbia, leaving more than half a 
million American citizens stranded and estranged from democracy 
in their own country. The ignorant claptrap from those who have 
not bothered to immerse themselves in American history that 
somehow the root principle of local control and accountability 
that gave birth to the Nation was not meant to apply to 
citizens living in our Nation's Capital is a slander on the 
founders of our country.
    Even worse, the claim that democracy applies everywhere 
else in our country, but not to the capital of our country, 
demeans more than half a million American citizens who live in 
the District of Columbia by explicitly classifying them as 
second-class Americans.
    Nevertheless, I appreciate that Mayor Tony Williams and 
Police Chief Charles Ramsey have come to testify as lead 
witnesses, and I thank today's other witnesses for their 
testimony as well. I hope it gives Mayor Williams some comfort 
in coming here to have a unanimous City Council and a virtually 
unanimous city behind him as well.
    There are two important aspects to this hearing. The first 
is who has the right and the qualifications to decide the gun 
safety repeal issue. The second issue is the District's reasons 
for maintaining strict gun laws in this city.
    Let us assume for a moment that the District is wrong in 
enacting strict gun safety laws. When Congress passed the Home 
Rule Act, it gave the District the right to make this decision, 
right or wrong, a matter that should close this case, 
particularly today, when Congress is demanding democracy 
worldwide.
    Even if the District is wrong, can the case seriously be 
made in America today that correcting what is wrong lies with 
this body, whose members cannot be held accountable for the 
consequences of repeal, will not be hammered for increases in 
gun violence, and will not attend a single funeral? The 
assertion that in undemocratically repealing our gun safety 
laws Congress would be doing its Constitutional duty would get 
us laughed off of the world stage, particularly today, when the 
spread of democracy worldwide is declared national policy.
    Since, in looking to the Constitution, Congress placed this 
matter in the hand of District officials and residents, we are 
left only with the second amendment, except that no local or 
Federal court, in 30 years of considering this Constitutional 
issue, has ever found that D.C.'s gun safety laws violate the 
second amendment to the Constitution of the United States.
    Thus, sponsors and co-sponsors and proponents alike are 
driven back to desiring boldly to override the democratically 
enacted laws of a local jurisdiction in the United States of 
America today. I invite the co-sponsors to try their hand at 
defending the undemocratic repeal of our gun safety laws while 
rising to object when other nations ask for a pass on 
democracy.
    No Member of Congress has the right to usurp our right to 
protect ourselves and our kids by introducing more guns that 
could take the gun violence already here the next step to a 
free-fire zone. No Member of Congress has the right to 
encourage guns in homes, when the overwhelming evidence from 
all the national data shows that guns in homes rarely are used 
to thwart intruders, and are almost always used to kill those 
closest to us and in suicides.
    No Member of Congress has the right to the odious provision 
this bill carries that bars the Mayor and the council from 
taking any action, even to an--and I am here quoting--
``discourage the private ownership''--discourage, my friends, 
the private ownership--or ``use''--use--``of firearms.'' No 
Member of Congress has a rebuttal to the hard data that shows 
that one in five police officers is killed by an assault weapon 
in our country today, weapons that this bill sanctions to be 
sold in the Nation's Capital. And no Member can contest the 
tragic fact that more teens are killed by gunfire than by all 
diseases combined.
    The most bankrupt rationale offered for this outrageous 
interference with our local laws is the existing gun violence 
in the District of Columbia. Let us hear the proponents and the 
co-sponsors argue with a straight face that allowing guns in 
people's homes would reduce, rather than increase, the gun 
violence here. District officials and residents deserve credit 
and they deserve our appreciation for the significant reduction 
in gun killings and in crime that they have achieved, and 
particularly for the sharp reduction in the number of children 
killed this year by gunfire.
    Our residents and officials deserve better than 
congressional action that would inevitably frustrate their hard 
work and drive up these killings. Nine year-old Dante Manning, 
shot and killed in Northwest in April, and 1 year-old Miani 
Gooding, shot and killed in Southeast in January, deserve 
better than to have the memory of their young lives besmirched 
by the repeal of the District's gun safety laws in the very 
year in which they died by gunfire. Promising 15 year-old 
Myesha Lowe, shot and killed as a bystander while eating fast 
food a year ago, whose mother, Francine Lowe, is here to 
testify today, deserves better too.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T2473.003

[GRAPHIC] [TIFF OMITTED] T2473.004

[GRAPHIC] [TIFF OMITTED] T2473.005

    Chairman Tom Davis. Thank you very much.
    Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman, for having this 
hearing today, and I appreciate your leadership of the 
Government Reform Committee.
    Protecting the second amendment rights our Constitution 
provides for is essential to the freedoms of this country. I 
strongly support the rights of all citizens to lawfully 
purchase, use, keep personal firearms. Gun control laws simply 
penalize lawful gun owners who use their firearms for 
recreational hunting and self-defense purposes. The best way to 
reduce illegal gun violence and crime is through strict 
enforcement of current laws and stiffer penalties for 
criminals.
    As a member of the NRA and a co-sponsor of Chairman 
Souder's bill, H.R. 1288, the District of Columbia Personal 
Protection Act, I believe it is important to draw attention to 
this issue. Restricting lawful residents' use of guns in the 
District of Columbia is not what our Constitution intended.
    According to the FBI and D.C. Metropolitan Police, the 
homicide rate has soured in the District of Columbia since the 
city banned handguns in 1976. Before the ban, the homicide rate 
was declining. But by 1991 alone it had risen by more than 200 
percent. This is in stark contrast to the overall national 
rate, which rose only 12 percent. This indicates that the ban 
has hurt those living in the District of Columbia and our 
visitors to our Nation's Capital. At this time, the District of 
Columbia is only three homicides--three homicides--away from 
the same number as we had last year, which illuminates that 
this gun ban is not preventing violent crime.
    I would like to welcome our witnesses today. I certainly 
appreciate you being here to testify, appreciate your expertise 
on this issue, and look forward to hearing from each of you on 
this panel, this first panel as well as the second panel. But I 
think we need to look at new ways to take on this issue. It is 
not just simply about the residents of the District of 
Columbia; it is about our visitors from around the country. It 
is about my constituents who come to visit the Nation's 
Capital.
    Indeed, it is about Americans from all States; it is our 
folks from around the country and around the world that come to 
our great National Capital. And it is a disgrace that we have 
such a high homicide rate and such violent crime occurring here 
in our Nation's Capital. Yet, we disarm those lawful citizens 
that should be able to lawfully keep firearms, and allow 
felons, who are continuing to commit crimes, keep firearms that 
they are obviously using to commit homicides.
    So I look forward to hearing the testimony of the Mayor and 
the police chief here today; I look forward to our future panel 
as well to actually illuminate the facts of this issue.
    Thank you, Mr. Chairman, for allowing us the opportunity to 
be here today, and thank you for your leadership.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC] [TIFF OMITTED] T2473.006

    Chairman Tom Davis. Thank you very much.
    Mr. Waxman.
    Mr. Waxman. Mr. Chairman, thank you for holding this 
hearing today, which is cynically titled the District of 
Columbia Personal Protection Act. And I commend you for working 
with Congresswoman Norton to put this important hearing 
together. And I especially want to commend Congresswoman Norton 
for her determined leadership on this and so many other issues 
that matter to the residents of the District.
    Contrary to the bill's title, the legislation we are 
considering won't enhance personal protection; it will imperil 
it. This is an astounding piece of legislation because it is so 
objectionable on so many levels. First, on process. We are 
having a hearing on this proposal today, 9 months after the 
bill passed the House. This isn't Chairman Davis' fault; the 
bill was run through last year over his objection. But passing 
a bill on the floor and then having a hearing inverts the 
legislative process.
    On federalism or Home Rule grounds, the bill is a travesty. 
This bill was not requested by the District, is not wanted by 
the District, and is vehemently opposed by the District. This 
bill isn't even about the District; it is about the NRA and its 
right-wing supporters in Congress foisting a misguided proposal 
on U.S. citizens who don't even have a vote in the Congress.
    The bill is deficient on Constitutional grounds. The bill 
says ``The second amendment protects the rights of individuals 
to keep and bear arms.'' That is just wrong. It doesn't, even 
though the NRA desperately wants to ignore the Supreme Court's 
rulings and rewrite the Constitution.
    The bill is also objectionable on law enforcement grounds. 
It allows not just handguns and rifles, but semi-automatic 
assault weapons. It compounds this danger by eliminating any 
form of registration, and it is riddled with gaping loopholes 
that undermine police efforts to curb gun violence. Here is an 
example. It would allow people to carry assault weapons for 
``informal target practice.'' How exactly would the District 
police enforce that?
    And here is another one. It is fine, under this bill, to 
carry assault weapons as long as you are on your way to a dog 
obedience training class.
    The most significant problem with this bill, however, is 
that it will directly endanger national security. I would like 
to show the committee members a picture. This is an actual size 
photo of a Barrett M82A1 50-caliber semi-automatic sniper 
rifle. These are what our military troops are using today to 
take out enemy positions in Iraq and Afghanistan. The military 
uses these weapons to destroy armored personnel carriers and 
blow up enemy bunkers from a mile away. The Marine Scout Sniper 
School at Quantico trains military snipers with these weapons.
    Here is another picture. This is a photo of an airplane 
cockpit window that was blown out by a 50-caliber sniper rifle. 
This photo was on the gun manufacturer's Web page, touting its 
destructive force.
    If this bill passes, District residents could assemble 
these weapons, fully load them, rest them on windowsills along 
Pennsylvania Avenue during an inauguration. Every single hot 
dog, ice cream, or t-shirt vendor that lines District streets 
along the mall on the 4th of July could be stocked with fully 
loaded AK-47s. Under this bill, all of these actions would be 
totally legal. Why would anyone in their right mind want to 
allow these weapons onto the streets of the District of 
Columbia?
    In short, this is a misguided, destructive, and ludicrous 
piece of legislation. If people are visiting the District of 
Columbia, they ought to leave their firearms back home. If the 
law of the District says they don't want them in this 
jurisdiction, then visitors ought to abide by the law, just as 
visitors to Los Angeles would have to abide by our law, if duly 
passed by the authorities running the city of Los Angeles.
    Why should it be any different for the District of 
Columbia? Why should people in this district be subjected to 
sniper rifles, guns, assault weapons, anything that anybody 
wants to have available to them? And to say that the murder 
rate in this area is due to the fact that there is a gun ban is 
absolutely absurd.
    Mr. Chairman, I am pleased that you are holding this 
hearing, and it takes some courage for you to do it, because 
the Republican leadership of the House has been in the pocket 
of the NRA for some time now, and that is why the House of 
Representatives rammed through a proposal to overturn the law 
in the District of Columbia. I hope it doesn't happen in the 
Senate; I hope it doesn't happen again in the House.
    But at least we are holding a hearing, unfortunately, after 
the House has already taken such an extreme step as to overturn 
the law in the District of Columbia. And to have now before us 
a proposal which is misguided and called the District of 
Columbia Personal Protection Act is a complete misnomer and an 
outrage.
    Thank you.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.007
    
    [GRAPHIC] [TIFF OMITTED] T2473.008
    
    [GRAPHIC] [TIFF OMITTED] T2473.009
    
    [GRAPHIC] [TIFF OMITTED] T2473.010
    
    [GRAPHIC] [TIFF OMITTED] T2473.011
    
    [GRAPHIC] [TIFF OMITTED] T2473.012
    
    [GRAPHIC] [TIFF OMITTED] T2473.081
    
    [GRAPHIC] [TIFF OMITTED] T2473.082
    
    Chairman Tom Davis. Thank you. I think about 50 Democrats 
voted for that too, just for the record.
    Any other Members want to make opening statements before we 
move on to our panel? I want to get to the panel. Mr. Cummings, 
followed by Mr. Clay, and then Mr. Kucinich.
    Mr. Cummings. Mr. Chairman, I too want to hear from the 
panel, but I tell you, after I heard one of my colleagues on 
the other side, I just have to say something.
    It is ridiculous to say that, when you have a situation 
where you already have a violence problem, to allow more guns 
into an area simply does not make sense. And I come from a 
district, the 7th Congressional District of Maryland, and 
Baltimore is in the center of my district, and we have one of 
the highest murder rates in the country. And I can tell you we 
just had a gun buy-back, and to my good friend Mr. McHenry, I 
can tell you we ran out of money after about a day, because 
there were so many guns out there.
    I think that we have to do--and I applaud Ms. Norton, too, 
for what she has done with regard to all of this, and you, Mr. 
Chairman, for holding this hearing, but I think we have to use 
some common sense here. I know what it feels like to come home 
at 1 a.m., and have two sawed-off shotguns aiming at my head. I 
know the feeling. And I know what it is like to go to the 
funerals. It is not a very good feeling. I also know what it is 
like to go to the funeral of police officers.
    And we have police officers that are reminding us that it 
is a thin blue line. Well, we also have Members of this 
Congress that go to those police officers' funerals, and we 
mourn. But the very officers that come and say help us protect 
you and give us what we need, the laws we need so that we can 
create that atmosphere of safety, suddenly we turn to the NRA 
and say what is your advice, and they say more guns, more guns, 
more guns. It only leads to more problems.
    In my district they say I am the No. 1 target of the NRA. 
Well, I have to tell you that is a badge of honor in my 
district. And I think that we in this country have to have a 
common sense approach. Folks talk about the safety of the 
District and visitors coming here. Just a few weeks ago we saw 
Congressmen and staff run from these office buildings, trying 
to find a place of safety. But the fact still remains that if 
we allow guns to just flow in this district like water down a 
stream, then the only thing that we are creating is a much more 
dangerous atmosphere.
    Last, but not least, let me say this. In the middle of my 
district, in Baltimore, which is only an hour ride away from 
here, there was an incident the other day--and I just read very 
briefly, Mr. Chairman, from the Baltimore Sun June 28, 2005: 
``Lost inside an adult t-shirt, a 13-year-old boy stood before 
a juvenile court judge yesterday and became the city's youngest 
murder suspect this year. The child is accused of being among a 
group of kids who had thrown an empty wine bottle at the victim 
Saturday morning, hitting the man in the foot. The victim 
protested, and at least a half an hour later police say the 
youngster covered his face with a bandanna, took a gun from a 
friend, and shot the victim several times. Police say the 
Pimlico Middle School pupil, who stands less than 5 feet tall, 
then shot in the back a second man who tried to drag the first 
victim to safety.'' One of them died, by the way. One of these 
victims died.
    My point is simply this: that I don't know where that gun 
came from, but anybody who has done the research on guns knows 
that guns that are in a home--and I am sure there will be 
testifying on this--you have a much greater chance of that gun 
being used by somebody in that house, or perhaps stolen, and 
that gun being used in a crime of passion or a crime which 
involves somebody that they know than it is to be used to 
protect themselves from an intruder. That is a fact, and those 
statistics have stood the test of time.
    So it is that we gather here, Mr. Chairman, and I thank you 
again, but I say that we go forward with some sensitivity and 
some understanding. This is not a world about the NRA. This is 
a country that is about laws. This is a country about a thin 
blue line. And it is a very thin blue line, and we must do 
everything in our power to uplift them so that they can protect 
us.
    With that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T2473.013

[GRAPHIC] [TIFF OMITTED] T2473.014

[GRAPHIC] [TIFF OMITTED] T2473.015

[GRAPHIC] [TIFF OMITTED] T2473.016

    Chairman Tom Davis. Thank you.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, and thank Ranking Member 
Waxman for holding today's hearing on the District's gun laws.
    In response to my colleague from Baltimore, I too want to 
say that I must be in good company being one of the most wanted 
of the NRA in Missouri, too. So I am in good stead with Mr. 
Cummings.
    Let me say that this hearing comes at a time when the total 
number of homicides in Washington has fallen to the lowest 
level in 18 years. Repealing the D.C. gun ban would be a step 
in the wrong direction. Judges in two cases challenging the 
District's gun laws have ruled that these laws are 
Constitutional. Although this ruling is being appealed, it is 
an issue for the courts to decide, and not this Congress.
    Pending legislation to repeal the District's gun laws would 
allow this Congress to arrogantly deny the District's right to 
enact its own laws. Opposition from District officials remains 
unanimous and consistent. It is unjust that my colleague, 
Congresswoman Eleanor Holmes Norton, who represents the 
District of Columbia, could not vote on behalf of the wishes of 
her constituents when the last Congress voted to repeal the 
District's firearm laws.
    Today's hearing serves as glaring reminder that Congress 
must grant equal voting rights for the citizens of the District 
of Columbia so that its residents will have voting 
representation in Congress. The Federal Government continues to 
direct billions of taxpayer dollars to make our Nation's 
Capital safer for residents, commuters, tourists, public 
officials, and law enforcement professionals dedicated to 
public safety. It would be hypocritical of Congress to 
undermine the District's gun safety laws.
    And I thank you, Mr. Chairman, again, and I yield back my 
time.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.017
    
    [GRAPHIC] [TIFF OMITTED] T2473.018
    
    Chairman Tom Davis. Thank you.
    Mr. Kucinich.
    Mr. Kucinich. I thank the Chair and the ranking member for 
holding this hearing, and welcome his Honor, the Mayor, and the 
chief to this Committee.
    There are a number of different issues involved here. The 
first issue that needs to be addressed immediately is the issue 
of Home Rule. Do the people of Washington, DC, through their 
elected representatives, have the right to make laws to protect 
and provide for the safety of their community? I think there 
can be no other answer to that than the answer yes.
    Now, as a former Mayor of the city of Cleveland, I 
understand full well the concerns of the Mayor of the city of 
Washington, DC, because the Mayor of the city of Washington, 
DC, and the members of the Council are forever being haunted 
with having to visit the families of victims of violent crimes. 
It goes with the territory. It also goes with the territory of 
the police officers.
    This isn't theoretical. It is not some Constitutional 
debate that is arcane. There are people dying on the streets of 
our cities because of the proliferation of the handguns. It is 
just a fact. Now, my travels across this Nation, your Honor, I 
had the opportunity to meet with--in one community in 
particular, which I won't name--to meet with the families--
mothers, mainly, and some brothers and sisters--of children who 
were casualties of the warfare that goes on in America's 
cities, and I saw hundreds of pictures spread out over a card 
table in a high school gym, and I saw various displays of 
pictures which kind of told the lives of young people.
    And it is really remarkable when you think about it, about 
the carnage that goes on in America's cities. And we have all 
this attention in this country on a so-called war on terror, 
when there are people living with terror in their own 
neighborhoods because of the proliferation of handguns. And you 
are trying to tell the people of Washington, DC, they can't 
control their own destiny in this regard?
    I read too many stories--and everyone here knows what I am 
talking about--too many stories about the brilliant careers of 
young people in school who have overcome all kinds of odds in 
the inner city, who were the pride of their mothers and 
fathers, and all of a sudden cut down by handguns. Anyone here 
who reads has read those stories. You only need to pick up the 
metro section of any major newspaper in this country to see 
those stories.
    We are acting as if there is not a problem here. We are 
acting as if a community doesn't have the right to protect its 
own interests and the safety of its own people. When I was 
Mayor of the city of Cleveland, I took an oath to uphold the 
safety of the city of Cleveland, the same oath that every 
public official takes.
    Mr. Mayor and to the police officers and the people who are 
here from Washington, DC, you should know that there are people 
in Congress who understand what you have to deal with on a 
daily basis. You should know that there are people who 
understand what it is like to grow up in a city, to love a 
city, to want to live in a city, and, at the same time, to have 
to contend with the day-to-day challenges in a city. I thank 
you for your perseverance, and I pledge to you there are many 
Members of Congress who are on your side who are going to work 
to support not only Home Rule, but work to support your right 
to be safe. Thank you.
    I yield back.
    Chairman Tom Davis. Thank you very much.
    Are there any other Members who wish to make opening 
statements? Yes, Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, a very important issue, a 
very important subject matter we must deal with. Thank you, Mr. 
Chairman and Ranking Member Waxman, for this hearing.
    It is imperative that our Nation's Capital should be the 
model for the rest of our Nation. However, it faces the same 
problem as many of our urban areas must deal with on a daily 
basis, the problems of violence and also gun violence.
    Last year, Congress considered legislation repealing the 
District of Columbia gun ban, and what I believe in a 
Constitutional right to bear arms, I also believe the 
Constitution charges lawmakers with the explicit responsibility 
of protecting our citizens. We are here today because 
legislation has been introduced that would again attempt to 
repeal the longstanding gun ban.
    I believe this is an issue of balance. While there are many 
valid arguments for reconsidering the gun ban, Congress must 
also consider what would take its place. Simply deregulating 
gun ownership could create a lawless environment and breed more 
violence. Instead, the question for us should be what laws 
would govern the District of Columbia's gun ownership if the 
current ban were repealed.
    It truly disturbs me when there are more people in jail 
than college. I don't believe that people should live in fear 
because we have firearms in the wrong hands. And that is the 
issue: in the wrong hands. We in Congress share the same 
mission as the community and the Metropolitan Police 
Department: to prevent crime and the fear of crime as we work 
with others to build safe and healthy neighborhoods throughout 
this Nation. Preventing crime through problem-solving, 
partnerships among communities, police and other city agencies 
is one solution to this growing problem. But our main concern 
is the accountability of this violence. How are we helping the 
citizens of the District of Columbia be accountable for 
firearms being in the wrong hands?
    Getting involved to try to stop firearms is an area where 
we all can debate back and forth all day. Working to prevent 
crime is one of our No. 1 priorities. And I don't mean just 
catching the criminals, but looking at the whole picture as to 
how the individual even got in this situation from the 
beginning, especially juveniles.
    Congressman Cummings talked about an incident in Baltimore 
yesterday where a 13 year-old child shot someone in the head 
and then his mother came to court with him, and on her hat she 
had ``Stop Snitching.'' That is one of the major issues that we 
have to look at, just other than guns.
    Now, today I hope we can gain new understanding of the 
effects of the current gun ban, as well as the impact it is 
having on the fight against crime. Making our neighborhoods and 
our cities a great place to live, work, and visit is a concern 
that will drive us all to hopefully make the right decision. I 
look forward to hearing the testimony.
    Thank you.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T2473.019

[GRAPHIC] [TIFF OMITTED] T2473.020

[GRAPHIC] [TIFF OMITTED] T2473.021

    Chairman Tom Davis. Thank you.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. I appreciate the 
committee looking at such an important issue as gun 
restrictions in our Nation's Capital, and glad to have the 
witnesses joining us today.
    One thing I believe we will hear from the witnesses today 
is that guns deter crime. As I have witnessed in my home State 
of Georgia, citizens who possess their own guns are able to 
effectively use them in self-defense, while ensuring that 
others are not hurt. The legislation before us today does not 
open the District's gun laws as wide as in Georgia, but makes 
an excellent step forward in protecting a fundamental right of 
American citizens: the right to keep and bear arms, and using 
those arms in self-defense.
    The right is guaranteed in the second amendment and is not, 
as some courts claim, a right reserved only to State militias. 
The right of the citizens to be armed protects our fundamental 
liberties, as our founding fathers recognized. I look forward 
to hearing from the scholars today on this subject as well.
    It also makes sense that criminals are far less likely to 
break into homes if they know there is a chance that people 
inside could be armed. Citizens use their weapons in self-
defense hundreds, if not thousands, of times a year, and 
preventing residents of D.C. from enjoying that protection 
simply does not make sense to me, and I hope not to others on 
this committee. I look forward to hearing from the witnesses on 
both sides during this hearing and seeing what their debate and 
their excuse for this bill is.
    And, Mr. Chairman, I want to thank you again for holding 
this hearing.
    [The prepared statement of Hon. Lynn A. Westmoreland 
follows:]

[GRAPHIC] [TIFF OMITTED] T2473.022

    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. I thank you, Mr. Chairman. I also want to 
thank Congresswoman Norton for requesting this hearing and you 
for holding it, Mr. Chairman, and I will be very brief.
    The fundamental question here, it seems to me, is who 
decides? You can hear people on one side of the aisle make the 
argument that more guns are going to make people more safe. 
However you want to make that argument, that is your right to 
do it. And you have people making the argument that we need 
reasonable restrictions on handguns and that will make people 
more safe. The question here is who is the right decisionmaker. 
Are they Members of Congress from other States, or are they the 
people of the District of Columbia, through their elected 
representatives?
    Nobody here is going to the State of Georgia or to 
California, or any other State and saying we know better than 
your local legislators, we know better than your State 
legislature. And, yet, the authors of this bill are doing 
exactly that to the people of the District of Columbia. The 
arrogance of saying we know better as to what is in your 
interest. We understand your public safety interest better than 
you do. We don't say that to the people anywhere else in this 
country, and yet that is what Members of Congress here are 
trying to do, is impose their views on the District of 
Columbia.
    It seems to me that in the interest of democracy, we should 
leave it to the people of the District of Columbia to elect 
their representatives, who use their best judgment as to what 
is best for the people. And if the people don't like the 
decisions they make, that is what elections are all about; they 
can turn them out at election time. But I don't think that 
people who represent folks from thousands of miles away should 
be making the decisions that should be made by the people of 
the District of Columbia.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. I think we are now 
going to hear from the elected officials of the District of 
Columbia, the two-term Mayor, Tony Williams, and Police Chief 
Charles Ramsey.
    As you know, we swear our witnesses in before you testify, 
so if you would just rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. I can't thank you enough for being with 
us here today. Mayor Williams, we will start with you. Try to 
keep it to 5 minutes, if you can, but this is an important 
issue, and some of the Members have gone over 5 minutes, so 
take as long as you need to to make sure you get your points 
across. But your entire statement is in the record.
    And the same with you, Chief Ramsey. We appreciate very 
much your being here.

    STATEMENTS OF ANTHONY WILLIAMS, MAYOR, THE DISTRICT OF 
COLUMBIA; AND CHARLES H. RAMSEY, CHIEF OF POLICE, METROPOLITAN 
                       POLICE DEPARTMENT

                 STATEMENT OF ANTHONY WILLIAMS

    Mayor Williams. Thank you, Mr. Chairman. My full testimony 
has been submitted for the record, but I want to thank you and 
Congresswoman Norton, the ranking member, and all the 
distinguished members of the committee for the opportunity to 
testify today on the gun control laws in the District of 
Columbia.
    And I want you to know that I am pleased that our chief of 
police, Charles Ramsey, is here with me today. He has led the 
effort to reorganize, reconstitute our Police Department and 
has led the effort to bring substantial reductions in crime 
over the last 2 years in our city, and that effort continues. 
And he is going to provide greater detail about how our gun 
control laws help prevent and combat crime.
    What I want to focus on today is the focus of Congresswoman 
Norton's remarks, your remarks, Mr. Chairman, and Congressman 
Van Hollen's, and that is the critical importance of our gun 
control laws as a matter of our local democratic processes and 
the limited Home Rule that we enjoy.
    As Mayor of the District of Columbia, it is my 
responsibility to do what I think is best to provide for the 
public safety of my citizens. That is my trust. Any attempt at 
the Federal level to pass a law or otherwise replace my 
judgment and our City Council's judgment with that of officials 
elected elsewhere I believe honestly and very sincerely is an 
indignity to the democratic process and to our citizens. It 
really represents student government more than self government.
    This legislation, in fact, is a slap in the face to me and 
to the people who live in my city. People who live in Texas 
should be respected, but should no more impose their values on 
the people of the District than the people who live in one of 
my neighborhoods should impose their values on the people of 
Houston or Dallas or Fort Worth.
    I am also really offended by this effort because of the 
hard work I have invested in returning my city to fiscal 
soundness, to economic viability, to operational 
responsiveness. Together we have worked to end the reign of the 
Control Board; together I have worked with the Federal 
Government and with the Congress diligently, hand in hand, to 
foster greater autonomy for my city, with an eventual goal of 
full voting representation in Congress. And I have to tell you 
a congressionally driven gun repeal takes us exactly in the 
wrong direction.
    The District of Columbia has been governed by, in modern 
times, an elected Mayor and 13 elected council members, since 
1975. During the Council's first legislative session in 1976, 
the District passed legislation that restricted the possession, 
use, transfer of handguns and semi-automatic weapons.
    I support our gun control laws because, in my view--which 
is also the view of the overwhelming majority of my citizens--
any increase in the number of guns in the District we believe 
will increase the likelihood that crimes will be committed with 
those guns. We have made significant progress in reducing 
crime, although we still have a substantial amount to do.
    The residents of the District I know, we all know all too 
well the human costs exacted by guns and violence. Seventy-nine 
percent of all homicides in the District last year were 
committed with guns, all of which were probably brought into 
the city illegally. Because of the porous nature of our 
borders, we can never rely on laws alone to keep guns out of 
our city, but these laws I believe are important local tools to 
help combat crime.
    Now, the District is far safer than it was a decade ago. In 
1995, which was not even the peak of the 1990's crime wave, 
more than 68,000 serious crimes were committed in our city. 
Last year, fewer than half that number was committed. 
Significantly long-term efforts--such as increasing the number 
of sworn officers to 3,800, restructuring our patrol service 
areas, strengthening our investigative capacity, improving 911 
response times--have contributed to these great strides in 
public safety.
    The Police Department is also taking aggressive action in 
the short term to reduce homicides and other crimes in the 
city. Though crime decreased 18 percent last year, arrests 
actually increased 14 percent. Project Safe Neighborhoods--in 
which, incidentally, we are working hand-in-hand with Federal 
law enforcement--is helping to stop the cycle of gun violence 
in the city. The Metropolitan Police Department is working with 
Federal law enforcement agencies and the courts to target and 
apprehend members of the most violent gangs in the city, and we 
are using the example of their prosecution and incarceration to 
deter other groups from resorting to similar violence.
    I have to tell you it is inconceivable that Congress would 
encourage more people in D.C. to pick up a gun just when we are 
successfully working with the Federal Government to convince 
others to put down their guns.
    Now, I awake every morning aware of my enormous 
responsibilities as Mayor to the nearly 600,000 residents of 
our Nation's Capital, certainly the people who work here and 
the visitors here. I am humbled by the honor bestowed on me as 
a trustee of the Nation's Capital. Being Mayor is a wonderful 
job.
    But it is a difficult job, because I have the duties of a 
Mayor, I have the duties of a county manager and of a Governor. 
My city is host to the seat of the Federal Government, the 
largest diplomatic community in the world, more than 20 million 
visitors each year. The District Council, when I govern this 
city, through partnerships that we believe very importantly 
must span ideologies, political parties, geography, and every 
other thing we need to span, this is essentially especially 
true in the area of public safety.
    I have traveled to every area of my city to hear first-hand 
from my citizens about their concerns and to enlist them in our 
crusade against crime. I have aligned my entire city budget to 
what I call ``lift all communities,'' starting with those that 
are mostly left behind, in our city's renaissance. Every one of 
these communities is struggling with a crime problem that I 
have identified. The city has responded with a successful Hot 
Spots Initiative that has produced--by focusing all of our 
government and non-profit efforts in these communities--a 32 
percent reduction in violent crime and a 25 percent reduction 
in overall crime in these violence-prone communities.
    It has been mentioned that we are only 3 homicides below 
last year. That is true, and I don't relish that; I would like 
it to be lower. But that number last year was a 20-year low. So 
we are moving in the right direction, and I believe that the 
additional measures we are taking, such as a comprehensive 
crime bill that I have sent to our District Council, which 
would substantially toughen our penalties, will take us in the 
right direction to reduce crime.
    I talk about my partnership with the Federal Government. 
You know, I support and I participate in the Criminal Justice 
Coordinating Council, which is an intergovernmental body. 
Members of my administration are open to every aspect of 
dialog--and I think everyone knows this--every aspect of dialog 
with our Federal partners.
    But my point is that there are many ways for the Federal 
Government to work with local officials. Our public safety 
agenda must be, and is, community-based and ought to be 
supported by Congress, not undermined. You have my cooperation. 
You have my respect. You have my ear. In turn, the citizens of 
Washington, DC, do not need disrespect or second-guessing. And 
I say that very respectfully.
    We ask that the Federal Government support the efforts I 
have outlined to reduce crime in our city, especially our 
prerogative: locally based on a democratic basis to enact local 
gun control laws that provide for the public safety of the 
citizens of the District.
    The long and short of it is that the citizens of the 
District of Columbia want nothing more than other American 
citizens would demand and get, and that is the right to make 
their own decisions about their own public safety.
    Thank you, Mr. Chairman and members of the committee, for 
the opportunity to testify to you today. As always, I am 
available to answer any questions you may have.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.023
    
    [GRAPHIC] [TIFF OMITTED] T2473.024
    
    [GRAPHIC] [TIFF OMITTED] T2473.025
    
    Chairman Tom Davis. Mr. Mayor, thank you and thanks for the 
job you are doing for the city.
    Chief Ramsey.

                 STATEMENT OF CHARLES H. RAMSEY

    Chief Ramsey. Thank you, Mr. Chairman, Congresswoman 
Norton, other members of the committee, staff, and guests. 
Thank you for the opportunity to present this testimony 
concerning the District of Columbia's handgun laws. I appear 
before you today not just as the chief of the Metropolitan 
Police Department, but also as a D.C. resident, as a father of 
a teenage son, and as a 36-year veteran of the law enforcement 
profession. It is in all these capacities that I express my 
strongest possible support for the District's current law 
restricting possession of handguns and encourage Congress not 
to overturn or weaken our laws in any way.
    Before discussing the situation here in D.C., I do want to 
point out that the District of Columbia is hardly the only big 
city in the United States to have a strong handgun control law. 
Prior to coming to the District in 1988, I spent close to three 
decades in the Chicago Police Department, which has a local law 
on handguns that is very similar to the District's. Chicago 
residents and their duly elected representatives have chosen to 
restrict the ownership of handguns, and D.C. should be afforded 
the same rights.
    Politically, I understand why some Members of Congress 
consider the District's law to be ``fair game,'' even if those 
same Members would never contemplate similar attempts to undo 
laws elsewhere. But from a public safety standpoint, the 
reasons to enact and maintain strong and sensible handgun laws 
are as compelling in D.C. as they are in Chicago, New York, and 
other cities across the Nation. Our residents and our locally 
elected leaders have all come to the same conclusion: 
restricting the same and possession of handguns makes our 
community safer.
    What impact would the repeal of D.C.'s gun laws have on our 
city? From my perspective, the answer to that question is 
straightforward and it is scary. Repealing our gun laws would 
mean substantially more handguns in the District of Columbia, 
and more handguns would mean more gun crimes, more gun 
violence, and more homicides, as well as more accidental 
shootings and suicides. More guns will also mean a greater 
threat to our police officers.
    Even with our strong gun laws, the District already 
struggles with the problem of gun violence. Last year, 79 
percent of the homicides in D.C. were committed with firearms. 
This includes 18 youth or young adults--the youngest just 7 
years old--killed with a firearm last year. Moreover, almost 50 
percent of our robberies and 20 percent of our aggravated 
assaults are committed with a firearm. Introducing even more 
firearms into our city would undoubtedly cause these figures to 
rise.
    This is especially true in the area of homicide. Our 
figures show that homicides in D.C. are frequently motivated by 
arguments and retaliation. Together with domestic violence, 
these motives account for half of all the homicides in the 
District. These types of homicides are seldom premeditated 
offenses, but rather spur-of-the-moment ``crimes of passion.'' 
When a handgun is readily available in a home or on someone's 
person, the changes of these encounters turning lethal increase 
significantly.
    Repealing our gun laws would mean more guns being more 
readily available to more people. And with handguns more 
readily available, I am concerned that more people would be 
inclined to use those handguns to settle arguments or domestic 
disputes, or to retaliate against someone else. I am convinced 
that these types of incidents, along with the increased 
likelihood of more accidental shootings and suicide, would far 
outnumber any instances in which a handgun in a home might be 
used as protection.
    Repealing D.C.'s gun laws at any time would be 
counterproductive to our public safety goals. But repealing our 
laws now would be particularly devastating. While D.C. 
continues to face challenges with murder and other violent 
crimes, we have made tremendous progress in the last few years 
in bringing down our violent crime rate. Last year, D.C. 
recorded fewer than 200 homicides for the first time since 
1986. Overall crime declined by nearly 9 percent in 2003, and 
by another 18 percent in 2004. So far this year, crime is down 
by another 14 percent, according to preliminary data.
    The bottom line: crime in D.C. is moving in the right 
direction and our neighborhoods are safer than they have been 
in many years. Now is definitely not the time to put this very 
encouraging trend at risk by introducing more firearms and 
greater potential for violence into our city.
    In fact, part of the reason for our success in reducing 
crime has been our ability to take more firearms off the 
streets. So far this year, 1,200 firearms have been recovered, 
an increase of about 15 percent from 2004. And in 2004 our 
firearm recoveries topped 2,000 for the first time in several 
years. We have put a high priority on removing illegal 
firearms, and our efforts are paying off.
    In 2004, of the almost 1,600 registration checks for 
recovered firearms preformed by MPD, only 16 of the firearms, 
or 1 percent, were registered in the District. Of course, the 
vast, vast majority of the weapons we recover originate from 
jurisdictions outside the District. Last year, the Bureau of 
Alcohol, Tobacco, Firearms & Explosives performed trace checks 
on over 1,500 firearms recovered by MPD that were linked to 
crimes. Of these, 736 firearms were successfully traced. Six 
out or 10 firearms were from Maryland and Virginia. The next 
highest source States were North Carolina, Georgia, West 
Virginia, and South Carolina.
    So we are continuing to face a serious problem with 
firearms being brought illegally into the District from other 
jurisdictions. Unfortunately, that problem is not likely to go 
away anytime soon. But we certainly should not compound this 
situation by weakening D.C.'s gun laws and making firearms even 
more prevalent in our city.
    Another reason we have been able to reduce crime in the 
District of Columbia is through our partnerships with other 
agencies and community-based organizations. On the enforcement 
end, we work closely with the ATF and other Federal agencies on 
tracing firearms and trying to link them to unsolved crimes. We 
are also working cooperatively with the U.S. Attorney's Office, 
the DEA, ATF, and others on the Project Safe Neighborhoods 
Initiative, which is targeting the most violent criminals in 
some of our historically violent neighborhoods, such as Sursum 
Corda and Barry Farm.
    Coordination with the community to combat gun violence is 
another priority. In just the past 2 weeks, we have joined 
forces with the East of the River Clergy-Police-Community 
Partnership; ROOT, which stands for Reaching Out to Others 
Together; No Murders DC; and other community-based 
organizations on a number of anti-violence initiatives, 
especially initiatives that target young people during the 
summer months.
    The Metropolitan Police Department is very proud of our 
record in reducing crime and violence in D.C. But we also 
recognize that we still have a lot of work to do and that, to 
be successful, we must coordinate our efforts with other 
agencies and organizations both inside the criminal justice 
system and in the community.
    To be successful, we also need strong and sensible laws to 
protect not only our residents, but also our police officers, 
as last week's tragic shooting death of an officer in Prince 
George's County illustrates. The District's ban on most handgun 
possession is an essential element in our overall crime 
reduction strategy. This law was enacted with the overwhelming 
support of D.C. voters three decades ago, and the law continues 
to enjoy widespread support among our residents and our police 
officers today.
    Repealing or weakening this law will not make our residents 
and our neighborhoods any safer. Such a move would actually 
endanger both our residents and the hard-working, dedicated 
police officers who already put their lives on the line to 
safeguard our Nation's Capital. For the sake of our residents 
and the safety of our police officers, we need to retain the 
District's strong and sensible law on handguns.
    Thank you.
    [The prepared statement of Chief Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.026
    
    [GRAPHIC] [TIFF OMITTED] T2473.027
    
    [GRAPHIC] [TIFF OMITTED] T2473.028
    
    [GRAPHIC] [TIFF OMITTED] T2473.029
    
    Chairman Tom Davis. Thank you very much. I am going to 
start the first 5 minutes with Mr. Burton, who wasn't here for 
an opening.
    Mr. Burton, you are recognized for 5 minutes.
    Mr. Burton. Thank you very much, Mr. Chairman. I really 
appreciate that.
    You know, when I first got off the plane and became a 
Congressman, I got in a cab with a cabdriver, Mr. Mayor and 
Chief, and I asked the cab driver, I said, what is the 
situation like here in Washington? He said, well, the crime 
problem is pretty bad. I said, well, you know, I have a permit 
to carry a weapon back in Indiana. Maybe I should get one here. 
He said, oh, you can't get a permit to carry a gun in D.C. I 
said, oh, is that right? He said, yeah. He said, the only 
people who have guns in D.C. are the criminals and the police. 
And he reached under the front seat of his cab, pulled out a 
.38 and said, but if you want one, I can get one for you in 
about 15 minutes.
    That is a factual story.
    I had a young lady that worked for me, she lived about 
three blocks from the Capitol. A guy shinnied up the drainpipe 
and came in through a window that was open on the third floor 
about this much. He attacked her with a 4-inch knife, stabbed 
her about four or five times. She had to beat him off with a 
pan; she couldn't have mace or a gun or anything in her place. 
And she survived and, fortunately, she got away. But the 
problem was she had no way to defend herself.
    You know, I want to give you some statistical data. In all 
50 States people have the right to keep a weapon in their home, 
but they don't in D.C. Now, I don't know what your latest 
statistics are, but by 1991, D.C.'s homicide rate had risen 
more than 200 percent. By comparison, the U.S. homicide rate 
had risen by only 12 percent. As of 2002, D.C.'s homicide rate 
is almost double the rate than when its handgun ban took 
effect. As of 2002, it is almost five times higher than the 
national average.
    According to DOJ's crime statistics, 2002 saw D.C. once 
again earn its infamous distinction as the murder capital of 
America, and it was the 14th time in 15 years that it got that 
dubious distinction. The gun control capital of the America, 
D.C., is almost the violent crime and murder capital of the 
country, the place in this country that comes the closest to 
having this kind of gun law that gun advocates would want in 
D.C.--and I think the results speak for themselves.
    As long as law-abiding citizens cannot protect themselves 
from somebody breaking into their home with a gun, then the 
criminal has the advantage. I won't live in D.C. I live in 
Virginia, and have a gun permit in Virginia because I want to 
protect myself. And I would urge you to look at the crime 
statistics over there in Virginia and in Indiana, and I bet you 
will find that the statistics show that people are safer there 
than they are in D.C. because they can protect themselves.
    If a criminal knows you cannot defend yourself except with 
a pan, like my secretary did, then he has no deterrent to break 
into your house with a gun and to attack you. It is insane, in 
my opinion, it is insane for a law-abiding citizen not to be 
able to protect themselves against somebody in the murder 
capital of the United States by having a weapon in their home 
to protect themselves.
    Now I want to read to you what the current law is here, 
because I think people need to know this; it is very, very 
important. Just 1 second. Bear with me.
    Well, you have to disassemble a gun, you can't have it in 
your house.
    Excuse me, Mr. Chairman.
    OK, registrants must keep any firearm in their possession 
unloaded and disassembled or bound by a trigger lock or similar 
device unless the firearm is kept at their place of business or 
used for lawful recreational purposes within the District of 
Columbia. Sales of firearms are similarly restricted. In 
addition, the possession of ammunition is restricted. The 
minimum punishment for violation of these restrictions is 
$1,000 and 1 year imprisonment. The maximum fine is $10,000 and 
imprisonment for up to 10 years.
    I have to tell you, Mr. Chairman--and I appreciate very 
much your yielding to me--I am against violent crime. I am 
against criminals who use guns in the commission of a felony. 
But I cannot, for the life of me, figure out why a law-abiding 
citizen in a city like Washington, DC, that has the highest 
crime rate in the country 14 out of the last 15 years, cannot 
have a weapon in their own home to protect themselves. It makes 
absolutely no sense to me.
    And Members of the Congress of the United States have been 
mugged, been beaten up, and gun-whipped. One of my staff people 
was gun-whipped by a guy not too long ago and robbed on the 
streets of Washington. Bob Michael, when he was the minority 
leader, was beaten up outside his garage and they took whatever 
he had on him at that time, and they had no way to defend 
themselves.
    We had a prominent writer here in Washington, DC, who has 
come out openly against owning a gun and having it in their 
home. Somebody tried to break in his home and he had a gun in 
violation of the law. That was in the paper not too long ago.
    I think it is extremely important that we make sure the 
people of this city are protected, just like the people in 
every other part of the country, and that their right to own 
and bear arms to protect themselves and their families should 
not and will not be infringed upon by this city.
    Chairman Tom Davis. Thank you very much, Mr. Burton.
    Ms. Norton.
    Ms. Norton. First of all, these witnesses didn't get the 
chance to respond because after the questions were asked----
    Chairman Tom Davis. Well, if you would like to respond to 
that, we won't go into Ms. Norton's time; we will start that 
again.
    Mayor Williams. Well, I will just respond to the notion 
that we are the only citizens in the country with ``restrictive 
gun laws.'' That is not true. There are restrictive gun laws in 
cities across the country. The difference is, again, apparently 
they have the ability to set these laws and keep them in place, 
and we don't.
    And then on the statistics, I just think we are using 
particular statistics to make a point, and not the most current 
statistics. I would ask the Chief to speak to that.
    Chief Ramsey. Yes. Earlier it was mentioned that the year 
the handgun ban was passed, in 1976, we had 188 murders. And 
that is true. Last year we had 198. That is an increase of 10 
over that year. So certainly you can look at numbers. And it is 
not that we haven't had years where we have had tremendous 
spikes. We have also had 2 years when we were below that; we 
had 175 in 1984 and 148 in 1985. So statistics can be used any 
way they can, any way you want them to be used.
    I am from the Midwest, and I would love to compare my crime 
stats with Gary, IN. I don't know about the rest of Indiana, 
but I think that Gary is a place that has more than enough 
problems on its own. So when it comes to taking a look at crime 
statistics and crime numbers, we have a ways to go, and we are 
working very aggressively. But we have made tremendous 
progress, tremendous strides in lowering the amount of crime in 
the District of Columbia, and I feel that adding more guns on 
the street is only going to cause problems.
    My officers have to confront gunmen on a regular basis. 
This weekend alone we took 17 guns off the street. Friday we 
got an AK-47 off a 15-year-old boy. Now, I don't know how many 
folks you have confronted, sir, in the alley at night with a 
gun on them that was intent on doing harm, but my people have 
to do it every single day. And adding more guns into the mix is 
not a good thing; it is going to get one of them killed, and I 
would hate to see that.
    So I would appreciate it--I am just telling you, sir, and I 
realize that we disagree. I realize we disagree, but to me it 
is a matter of safety, it is a matter of what is best for the 
people of our city. And that is all we are asking for here, is 
to get the same respect as everyone else.
    Not being from the District, I never realized that this 
sort of thing went on. I just never realized. But I do now. And 
I am here to tell you that the people that we elect, that I 
helped elect ought to be the ones to make that decision. The 
men and women of the Metropolitan Police Department have put on 
that uniform, put on a bulletproof vest, and get out there and 
police our streets every day ought to have a say in what they 
are confronted with out there on the street. And we are going 
to open the floodgates and we are going to have nothing but 
problems, and it is going to be my people suffering as a result 
of it.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you very much. Thank you both for your 
testimony. It is important to hear you because you are the 
experts on this subject, and we are trying to learn here today.
    Mr. Chairman, I note for the record that last year there 
were 157 homicides, all homicides in D.C. We are at 63 this 
year, on record, therefore, to reduce that. Last year, 
tragically, there were 18 juvenile homicides. To date, 
tragically, four, but only four.
    So I want to begin by congratulating you on a very 
significant reduction over even this year and ask unanimous 
consent that these figures be put in the record, Mr .Chairman.
    Chairman Tom Davis. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.030
    
    Ms. Norton. Could I ask both of you? Council has a bill 
pending here. I am going on the floor tomorrow to try to get 
our appropriation out of here, your money, not a cent of it 
money from the U.S. Congress. It will contain money in there 
for police and money in there for economic development. So I 
would like to ask you both what effect having guns, yes, in 
homes, but having more guns in the District of Columbia will 
have on two notions: one, the police workload, and two, the 
economic development that we see going on all around the city.
    Mayor Williams. Well, our effort generally, Congresswoman 
Norton--and I will let the Chief speak to the police department 
particularly--but our effort overall has been to address the 
needs of our neighborhoods, stabilize those neighborhoods, 
harness all the resources of our government to attack problems 
in those neighborhoods. First step, get the agencies on their 
feet. Second step, harness all the efforts of our agencies 
around general problems within the wards.
    One problem we have made a lot of progress is cleanup and 
stabilization of abandoned housing. Another area we have made a 
lot of progress with another agency is improving substantially 
response to 911. We then took that a step further and combined 
with redeploying our police and better patrol service areas, 
focused on hot spots in the city. And what drove down our crime 
over the last 2 years was our intensive focus on these hot 
spots, driving down crimes 30 to 35 percent.
    Our next step, as you heard in the state of the District, 
was to build what we are calling new communities, mixed income 
communities with hope and opportunity for all the citizens in 
those communities, again, to pacify and stabilize these 
communities. I stress these words: pacify, stabilize these 
communities; revitalize these communities.
    Bringing guns on the street--and the Chief is right, I 
believe guns unleashed, if you will--or allowed, I guess to be 
more polite--under this bill are not going to be used primarily 
by citizens protecting their homes, they are going to end up in 
the streets and the alleys, and our police are going to have to 
face them.
    Chief Ramsey. Ms. Norton, the addition of guns or the 
availability of guns, I don't see how it is going to help our 
situation here in the District of Columbia in terms of our 
fight against crime. I just don't see how that can happen.
    Ms. Norton. In terms of your own workload and the number of 
police, what is your view about having more guns in the 
District, in people's homes?
    Chief Ramsey. Well, we are going to have burglary, 
unfortunately, it will continue to be problem. I take the 
opposite view, that a person would not refrain from breaking in 
a house that they know they have a gun; they will wait until 
the opportunity to present themselves to break into the house 
that has a gun, because they can take the gun and they can sell 
it on the street or use it themselves.
    There is no one thing that we can come up with that is 
going to be the end-all strategy of fighting crime, but I think 
we have to do what is sensible and what is reasonable. And 
reducing the amount of guns that are available is certainly a 
sensible and reasonable approach.
    I was watching an old movie a couple of nights ago, 
Tombstone, a Wyatt Earp thing. They were standing on the edge 
of town collecting guns from people in 1881, keeping them from 
bringing them into Tombstone. I mean, it was a sensible, 
reasonable thing for them to do. I had to kind of chuckle when 
I saw that because, you know, here we are today, a century or 
so later, still trying to stand at the borders and saying, hey, 
you need to leave your gun somewhere else; you don't need to 
come to town with your gun. I don't think that is all that 
unreasonable, especially when the average person that comes 
into this building--it is easier to get into the airport than 
it is to get into this building with all the screening for 
weapons and guns and so forth.
    I mean, not everyone has the luxury in our neighborhoods, 
unfortunately, of having a situation where they have that up-
front screening of individuals to make sure that anyone who is 
in possession of a firearm is decent, law-abiding, and 
authorized to do so. They have to live day in, day out in 
circumstances that can put their lives at risk. We do the best 
we can, but adding more guns to the mix I don't think is a 
solution, not for the District of Columbia. It may be for 
someplace else, but not for D.C.
    Chairman Tom Davis. Chief, Ms. Norton's time is up. The 
Members have three votes to go over and cast, and if you can 
stay for questions, I am going to allow Ms. Norton to continue 
questions, and then recess the meeting. If you and the Mayor 
can stay, it would be important. This is important. I think you 
made news, bringing out Wyatt Earp as an advocate for the D.C. 
gun ban today. But I am going to allow Ms. Norton to continue. 
Members will resume questioning when we get back. And I 
appreciate your being able to continue with this.
    Ms. Norton. Thank you, Mr. Chairman. The chairman has given 
me the gavel. It shows you he trusts me. He ought not be so 
sure about that when it comes to the gavel.
    I do have a few more questions. I would like to speak to 
the Chief. In another role he has had since September 11th. I 
used to talk to you only occasionally, Chief Ramsey, because 
these matters are not in my jurisdiction; the jurisdiction is 
of the Mayor and your jurisdiction. But I have had a lot of 
contact with you since September 11th because of the security 
measures around the Capitol.
    There has been a lot of discussion about these bills in the 
abstract, and I go back to my roots as a law professor. I 
continue to teach a course at Georgetown, so I have to go back 
to the hypothetical. If you read this bill, you could have 
something that no one has ever seen in the District: gun shops 
and, if you were licensed, pawn shops where people could deal 
guns across the counter. We could have them on Capitol Hill, we 
could have them in Georgetown, you could have them across the 
river, because this bill keeps the District of Columbia from 
doing anything that would discourage the possession of 
firearms. So there is no way to read that except there is 
nothing you can do; Home Rule hands are tied.
    D.C. couldn't require, for example, background checks. If 
somebody wanted to have gun shows in the District of Columbia, 
you could have gun shows, because the Mayor and the council can 
do nothing to discourage--here is what the statute says--the 
possession and ownership of guns.
    I am trying now to lay out some of what could happen and 
what you have to prepare to have happened.
    You might, for example, think, well, let us pass an 
ordinance at least, some kind of law that says, OK, you can 
have them everywhere, but you can't have them in bars or you 
can't have them in churches or restaurants or in schools. Of 
course, I think that would violate the explicit language here. 
Because you can't ``discourage'' the possession of guns 
anywhere in the District of Columbia.
    Now, let us leave aside District residents and their safety 
for a moment. Would you speak to me as a security official who 
is a part of the Federal team to keep the Nation's Capital 
secure from terrorism?
    Chief Ramsey. Yes. Guns can very easily fall into the wrong 
hands. There is no question about that. We see it with street 
gangs, where they go out and they use people to legally 
purchase guns, and then they transfer those guns to gang 
members and others. There is no way that once you open those 
floodgates, you can really control it.
    In a city like the District of Columbia, which has more 
than its own security risks just by the fact that it is the 
capital of the United States, high-risk protectees that 
constantly visit here, it is a full-time job guaranteeing the 
safety, or at least trying to ensure the safety of those 
people, as well as the residents of the District of Columbia.
    Again, adding more guns, I don't think there is a security 
officer anywhere, a responsible security officer, that would 
say the way to enhance security is to increase the number of 
guns. To me, there is no logic there, at all. I think that it 
is going to pose a tremendous burden on those Federal agencies, 
like the Secret Service, that have responsibility for the 
protection of the President. It certainly will put a huge 
burden on my department. And one of the first things I will do 
is ask for more manpower, because I know I am going to need it, 
because it is going to start and it is going to start fast.
    And it is going to spill over into Virginia and Maryland, 
because anything that happens in D.C. spills into Maryland and 
Virginia, and vice versa. Gang problems, drug problems, 
whatever it might be, in that small area there within the 
National Capital region, we all impact one another to a degree 
that you can't just do it in isolation. So it is going to have 
a tremendous negative impact on all of us in law enforcement, 
period.
    Ms. Norton. Thank you. I just think that is one aspect of 
this bill that isn't even considered. They consider, you know, 
just hammer the District and you will be fine, and the changes 
since September 11th aren't discussed.
    The argument is made that this is a bill for law-abiding 
citizens, in homes, people's homes, they should be able to keep 
it in their homes; this is not a bill that would allow felons 
to have guns. Would you speak to the notion of keeping guns in 
homes? And which homes you think, in the District, would be 
likely to have those guns and what you think would happen as a 
result of those guns in those homes in the District?
    Chief Ramsey. Well, I don't know who would be most likely, 
but I can assume that people in more crime-ridden areas of the 
city would tend to be the ones that think they need this for 
their own protection. However, they are the ones that are most 
likely to be burglarized. Mistakes can be made and accidental 
shootings take place all the time; children finding guns and 
accidentally shooting another sibling. There have been 
instances where parents heard a sound, didn't know who it was, 
wound up shooting one of their own kids or a loved one that 
they think is a burglar and turns out not to be.
    And bullets have no eyes. The one part of this argument 
that kind of goes without too much comment, if you have two 
people, both legally in possession of a handgun, they decide to 
exchange gunfire, you know, most people don't hit what they are 
shooting at under those circumstances. Those bullets keep 
going, and they keep going until they strike something, and 
that something could be another Chelsea Cromartie, like we had 
happen over in Southeast last year, an 8-year-old girl shot in 
the head, sitting in her own living room watching television. 
Dante Manning, just this year, that got shot on 13th and Euclid 
Street, because whoever was being shot at they missed and they 
hit this child.
    So having guns, firing guns in an urban area is just a 
mixture for disaster. Absolutely no good can come of it. Having 
guns in homes, again, is just something else. Burglars take 
what they can sell. Handguns bring a good price on the black 
market, and a handgun would be one of the first things that a 
person would take if they break into a house.
    Ms. Norton. You can't have a gun in the District of 
Columbia, apparently, legally, so where do they get the guns 
from?
    Chief Ramsey. We trace our guns, the ATF traces our guns. 
The two source States that come up most frequently are Maryland 
and Virginia. Six out of 10 guns that we recover come from one 
of those two States. That is followed by North Carolina, 
Georgia, West Virginia, and South Carolina. Pennsylvania was in 
there. We haven't gotten as many out of Pennsylvania recently 
as we had in years past. But those are the cities where most of 
the guns that come into the District, that is the source of the 
firearm, from those two jurisdictions closest to us.
    Ms. Norton. So, at the very least, then, the District of 
Columbia makes it more difficult to get a gun because you have 
to either go across the line or go into the street to illegally 
get a gun. You can't get it, become a criminal after you get 
it, and then deal with it that way.
    Chief Ramsey. Yes, ma'am. I realize that, you know, again, 
nothing is foolproof. We certainly don't claim that having a 
gun law means that there is no gun violence that can possibly 
happen in your jurisdiction. But there is no point in making it 
easier by making guns more available, by putting it in the 
hands of those that will misuse it.
    We also get about 3,000 offenders back a year from our 
various penal institutions around the country. Again, we have a 
lot of issues that we need to deal with in the District of 
Columbia. Most of them go on to not re-offend, but some do re-
offend. So we have a lot of people that we just need to just 
make sure that guns don't fall into the wrong hands. We have a 
growing problem with juvenile violence.
    You mentioned that earlier in your testimony, the number of 
homicides we had, car thefts, things of that nature. Last year 
we arrested 17 percent more juveniles than we did the year 
before. So juvenile violence is a problem, and they are younger 
and younger, and they are getting very sophisticated weapons. I 
mentioned just last Friday a 15-year-old boy with an AK-47 in 
his possession. I mean, that is the kind of thing that our 
officers are facing out there on the street, and we just don't 
need to make it easier.
    This is not the time to go backward. We are making very 
good progress in our fight against crime, and I would just hate 
to see this happen, because it is going to have a negative 
impact.
    Ms. Norton. Thank you very much.
    Final question for you, Mr. Mayor. In your role as 
President of the League of Cities, you must have some 
familiarity with the way in which other cities view gun laws of 
the kind we have, the role of the League of Cities itself with 
this kind of legislation. I wonder if you could somehow compare 
where we are with other cities across the United States and 
with where the League of Cities--which has big cities and 
little cities alike--where the League of Cities would stand on 
a bill like ours.
    Mayor Williams. Well, Congresswoman Norton, I couldn't 
speak for the League in terms of taking a position on this. I 
know that the League of Cities and U.S. Conference of Mayors 
supported the strong anti-crime measures that were taken in the 
Clinton administration. I am not sure about this particular 
bill, but I can tell you this----
    Ms. Norton. You mean things like the assault weapon bill.
    Mayor Williams. Oh, the assault weapons I am sure that, by 
and large, cities are----
    Ms. Norton. And you are aware that Congress has failed to 
renew the assault weapon law? So we have a situation where now 
you can sell assault weapons in this city and elsewhere.
    Mayor Williams. And cities in general that are opposed, 
obviously, to that, would support strong measures. I think you 
could find that, by and large, your larger cities would have 
stronger gun control measures, as does the District of 
Columbia, and your smaller rural towns and communities would 
have different arrangements, in other words, more liberal 
measures to allow gun ownership.
    But I think the point that you have made and the point that 
I am making and the Chief is making and other members have made 
is that this really ought to be a local prerogative, especially 
where, in my mind, I can give you examples of cities that have 
tough gun control laws that have had increases in crime. I can 
give you examples of cities that have tough gun control laws 
that have had decreases in crime.
    I don't think you can make a direct linkage to gun control 
laws adding to an increase in crime. I think you can make a 
strong case, as we are making here, that if you relax these 
laws in an environment where one of your No. 1 problems is gun 
violence, adding more guns to the mix just, to us, is 
completely counter-intuitive, and I think most cities would 
tell you that.
    Ms. Norton. Well, thank you, Mr. Mayor. On behalf of the 
chairman and other members of the committee, I want to thank 
both of you for coming forward. There has been a lot of cheap 
talk about gun repeal and about crime in the District of 
Columbia, almost always at least for national exposure by 
people who have no expert background, as both of you have, and 
your testimony has been very valuable today.
    Thank you very much. The hearing will be recessed until 
after the vote, by those who can vote.
    [Recess.]
    Mr. McHenry [presiding]. The committee will come back to 
order.
    I certainly appreciate, Mayor and police chief, your 
waiting during our series of votes. Members will be returning, 
but as I know you have a very busy schedule, the chairman is 
actually on the floor at this moment trying to work an 
amendment, so he will be here shortly. He does have questions 
for you all, so if you would be good enough to stick around for 
those, we would certainly appreciate it.
    At this time, I wanted to first start kindly with the chief 
of police. Chief Ramsey, was the Metro difficult getting over 
here today?
    Chief Ramsey. Well, we could work a little bit on the 
scheduling.
    Mr. McHenry. I have seen that the thefts have gone down in 
D.C. It actually illuminates a point of progress you have made. 
Actually, I was here in 2000 and 2001, and I believe at that 
time your leadership during the WTO protests was quite 
heralded, and the issues and difficulties you dealt with there.
    Chief Ramsey. Thank you.
    Mr. McHenry. So we appreciate your leadership.
    I do think there has been progress made in Washington, DC. 
When I lived up here and worked up here as a staffer in 2000 
and 2001, before my service in Congress, my house was broken 
into, my townhouse was broken into living in Southeast. And it 
was quite interesting to me that we are living in the Nation's 
Capital, yet we have a crime problem. And certainly it is a 
problem not uncommon across the United States. But what we are 
trying to do today is look at solutions for this.
    There is a basic question that I have. Chief Ramsey, aren't 
guns illegal in Washington, DC, now?
    Chief Ramsey. Well, we have a restriction on the 
registration of handguns. There are some rifles that are able 
to be properly registered, shotguns with a barrel length of a 
certain amount--not, certainly, sawed-offs. That is not part of 
the ban; the ban is against the handguns.
    Mr. McHenry. Just handguns. Now, in terms of crimes 
committed with handguns, do you have any statistics on that?
    Chief Ramsey. About 75 percent of the homicides, robberies, 
assaults with a dangerous weapon are committed with the use of 
a handgun.
    Mr. McHenry. Seventy-five percent.
    Chief Ramsey. About 75 percent of the violent crime.
    Mr. McHenry. And so the question is aren't they illegal?
    Chief Ramsey. Yes, sir. And individuals are charged with 
those offenses when they are arrested.
    Mr. McHenry. So the handgun ban isn't working?
    Chief Ramsey. Well, sir, I am not intimately familiar with 
laws across the United States, but I believe murder is illegal, 
rape is illegal, robbery is illegal. I can't think of a city in 
the United States that doesn't have those same problems. So 
laws are designed to keep decent law-abiding citizens safe, but 
there are always those that will break those laws, which is why 
I have a job and thousands of others like me have a job in 
this, to get those people off the street and do the best we can 
to try to control it. But it is not absolute.
    Mr. McHenry. It is not absolute. Therefore, a ban on 
handguns only prevents those law-abiding citizens from not 
having a handgun. Isn't that correct? If you are a law-abiding 
citizen and you uphold the law, you generally would not break 
the law by carrying a handgun in places where it is banned.
    Chief Ramsey. Well, unfortunately, there is not a ban and 
the rest of the country doesn't follow D.C.'s lead in having 
strict gun control laws. That is a very unfortunate 
circumstance. And because of that we do have guns that make 
their way into the city. If we had a stronger stand across this 
country about handguns, then I think you would see the benefits 
of that throughout this country in terms of a lowering of 
violent crime, particularly those crimes committed with 
handguns. But because of the unevenness of the laws as they 
exist now, it makes it very difficult.
    Mr. McHenry. It makes it difficult. So the question I have 
to you is, generally speaking, with your history in law 
enforcement, I would probably say that those that have an 
advantage, criminals that have an advantage over the people 
they steal from, for instance, assault, batter, murder, they 
typically have an advantage of some sort, whether it is not 
just criminal intent, but perhaps the weapon they have and they 
use versus the people they are stealing from. Isn't that the 
case you have seen?
    Chief Ramsey. Well, if a person is armed and another one is 
unarmed, then obviously the person that has the gun would have 
an advantage.
    Mr. McHenry. Therefore, if you level the playing field, for 
instance, if I broke into your home--and, as a police officer, 
you are entitled to carry a gun in Washington, DC, and I 
suspect that you would have a weapon in your home. If I broke 
in and I had a handgun, and I pulled a handgun and brandished 
it at you and said, give me your money, and you pulled out a 
handgun and said, no, not so fast, do you think there is a 
detente there? Wouldn't you say that would prevent me from 
stealing from you and assaulting you and stealing from your 
home?
    Chief Ramsey. Well, this is an interesting discussion that 
we are having here, I guess, and I think I kind of understand 
where you might be coming from. But if you had a gun on me and 
I didn't have mine with me, I would give you my money, quite 
frankly, seeing as how you had that kind of advantage.
    Mr. McHenry. Well, I would hope----
    Chief Ramsey. I have been in a situation like that before, 
quite frankly.
    Mr. McHenry. And tens of thousands of people in Washington, 
DC, do that.
    Chief Ramsey. But let us get down to the meat of I think 
where you might be trying to go with this, sir. If you have two 
people with guns and they decide that one is going to rob the 
other one and the other one says no, and they get into an 
exchange of gunfire, in most instances, including with highly 
trained police officers, they don't hit what they are aiming 
at. Those bullets don't stop; they keep traveling until they 
hit something.
    Now, in the case of Dante Manning, he happened to be a 13 
year-old boy standing in the street in front of his house, 13th 
and Euclid, that got hit in the head and is dead. Last year, 8 
year-old Chelsea Cromartie shot, while sitting in her home 
watching television, by a stray bullet.
    There are consequences way beyond the scenario that you are 
laying out that causes a public safety threat, sir.
    Mr. McHenry. But all those folks that use those weapons 
were breaking the law. Am I correct?
    Chief Ramsey. Sir----
    Mr. McHenry. Absolutely yes. So the conclusion of this is 
do you steal from the strong? No, you steal from the weak. Do 
you assault those that are mighty? No, you assault those that 
are meek. And if you level the playing field, if you level the 
playing field--you used the reference that your police officers 
encounter folks in a dark alley with a weapon.
    You know what the advantage, though, that your officers 
have? It is that they have a weapon too. And they level the 
playing field. And you know what? It is shown statistically 
across the country that simply brandishing a handgun by a law-
abiding citizen can prevent a crime. Brandishing a handgun, if 
I broke into your house, would maybe, possibly make me leave 
your premises. In fact, probably run.
    Chief Ramsey. Mr. McHenry, I appreciate all this, and, you 
know, you mentioned the officers have an advantage. I think if 
you talk to the family of 110 of my officers whose badges are 
hanging on that wall right now in my training academy that got 
killed in the line of duty, they didn't have much of an 
advantage. And I don't think that Officer Gauguin had much of 
an advantage last week when he was gunned down in Prince 
George's County.
    And you keep using a very curious term of leveling the 
playing field. It seems to me like the only thing you are doing 
is playing with the lives of the people of the District of 
Columbia. And that, sir, is a game that I don't happen to want 
to participate in. We have laws in place. Those laws were put 
in place by the people who were elected to represent us as 
residents of the District of Columbia. And most--not all, but 
most folks would prefer they just be left alone, myself 
included.
    And as far as my police officers go, and the kinds of 
dangers they confront on a daily basis, it is bad enough out 
there now. We don't need any more. Most homicides, the majority 
of homicides in the District of Columbia--and this has been 
true historically, as far back as I have gone--the main motives 
are argument and retaliation.
    When people are in the heat of passion, when they are 
angry, if they have a weapon, they will use it. If they get 
into a fistfight, someone is going to win, someone is going to 
lose. The loser is likely to pull that handgun. We are going to 
have tragedies. We are going to have problems beyond what we 
have now. And this just isn't the time to do it.
    Mr. McHenry. But our discussion, up until you threw out 
some very emotional things--and I certainly want to give our 
officers on the streets everything they need. But the question 
I have is for those that are victims of crime. And in 
Washington, DC, we all admit we do have a crime problem. So I 
am looking at ways to actually solve this problem. As someone 
who lives in Washington, DC, a greater portion of the year, I 
want to have security in my own apartment here on Capitol Hill, 
just blocks from the Capitol.
    Chief Ramsey. Well, sir, I understand all those arguments, 
and I guess that part of the plan is probably to loosen some of 
the security around the buildings here, which, again, it is 
harder to get into the airport than it is to get into this 
building when it comes to checking people for weapons. And I 
don't hear anybody saying that we ought to allow handguns in 
here.
    You mentioned earlier in your opening statement that your 
folks from your jurisdiction who want to come and visit D.C. 
want to carry their guns. Can they bring it with them when they 
come to see you in your office? You want to put it on us and 
put it on our backs. Yet, there are two Capital policemen for 
every single Member of Congress. The rest of us don't have 
those odds. So all we are asking is that we work together 
collectively to put in place the kinds of laws--which we 
already happen to have one, by the way--which will help us 
protect our people.
    Mr. McHenry. What am I going to do with----
    Chief Ramsey. You want to help my police officers? Help us 
by not passing this law. That is how you can help my policemen.
    Mr. McHenry. You know what you can do to help me in my 
life? Is allow me to carry a handgun so when somebody breaks 
into my house at 3 a.m., and wants to beat me up and take 
everything from me, and maybe possibly kill me and shoot me, if 
I just simply brandish a weapon and I am able to level the 
playing field, then I am going to have a chance of survival 
before I have to wait 30 minutes for your folks to come out 
there, if I have the ability to communicate with you all and 
call 911 to get a response.
    So I will tell you, sir, that our motivation is to allow 
protection of individuals, not to spread more handguns. What we 
are trying to do is allow law-abiding citizens the same 
opportunity that these folks, these crooks, these criminals, 
these murders that are out on the streets have because they are 
willing to break the law. As a law-abiding citizen, we are 
trying to give that same opportunity and level the playing 
field.
    Chief Ramsey. Well, I am very appreciative of how motivated 
you are to do this, sir. I am just simply saying I am equally 
motivated not to let you do it. I think that it is really not 
in our best interest here in the District of Columbia--perhaps 
in other jurisdictions, but not in ours--to have the current 
handgun law in any way tampered with.
    I think it is a good law, I think it is a solid law, I 
think it is good for the citizens of the District of Columbia. 
And if they choose to change it, then it should be their right 
and their decision to change it. And I think that is basically 
what we are saying here.
    Mr. McHenry. Well, thank you for the exchange. I certainly 
appreciate it. Appreciate your testifying.
    Chief Ramsey. Thank you.
    Mr. McHenry. At this point I would like to recognize 
Congresswoman Watson, if you have questions.
    Ms. Watson. Thank you so much, Mr. Chairman.
    I want to thank our chief of police and our Honorable Mayor 
for being here. Those of you who are on the streets every day 
realize what the problem is, and the problem is guns in the 
hands of the irresponsible. But I would never want a shootout 
at the O.K. Corral, and that is exactly what it would be if we 
liberalize the gun laws here.
    How do we know who the innocent people are? Because a youth 
is innocent until he pulls that gun. I am dealing with that 
right now in my district, South Central Los Angeles, and I have 
an illegal gun shop that has been operating for 15 years, and I 
went to ATF and I went to Customs, and we can't get them to 
close down, and they have violated every law.
    So the people with the power get the guns, and the 
powerless become the victims. And I would not solve the problem 
of violence in this city where we work by letting everyone have 
a gun. You know, children find those guns. I know in my 
district they find them all the time. Kill their playmates, 
kill themselves. I see adults passing the guns on to children 
and having them fire that shot. The gangs started in my 
district. So I live with this problem every day. And the 
solution to gun violence on the streets is not allowing 
everyone who walks through the door to have a gun.
    So my question to you, Chief Ramsey, is how do we, how 
would you--and I hope this law goes nowhere, and I am very 
sympathetic to the statement that let us make that decision, 
because I did put an amendment in this bill that we had 
fighting drugs and so on to let the local elected officials 
help determine what is a high violence area, because we live 
there and we represent these. And I was born in my district.
    Under the Constitution there are people who have a right, 
if there is a militia, to carry a rifle. How would you balance 
that right and keeping guns away from irresponsible people? Can 
you deal with that?
    Chief Ramsey. Well, I wish I had the answer to that, ma'am. 
Unfortunately, I don't. I personally think that if you commit a 
crime with a handgun, I would like to see you get 10 years just 
for doing it with a gun, separate from whatever gun it is; 
robbery, rape, whatever it might be. You do 10 just for having 
a gun and using the gun that way, as opposed to anything else. 
But that is not the way it really works. So there is not a 
whole lot of disincentive for people not to use guns to commit 
crimes, and that is because of some of the laws that we have 
that, quite frankly, I think are a little weak when it comes to 
violence committed with the use of a handgun.
    I don't think you solve that problem by introducing more 
guns. I think you deal with the criminal element in the 
harshest way you can in terms of letting them know and sending 
a clear message that if you commit a crime and you use a 
handgun, where you can potentially take somebody's life, then 
there is a very, very stiff price to pay. Maybe then we will 
start to see less and less of it. Maybe then this kind of 
debate can take place, where we don't find ourselves in the 
midst of the kinds of problems and issues that we have now, 
where there is no disincentive for people who do that.
    When you look at the amount of violence that is being 
committed out here, younger and younger people--and if we have 
a law where you can buy guns--let us say 18 year-olds are able 
to buy guns. Can you imagine 18, 19 year-old boys being stopped 
in many of our neighborhoods with a gun by a police officer? 
And you think nothing is going to happen? I mean, we are going 
to have some serious consequences here.
    And this could be a good kid, perfect kid, but at night, in 
a dark alley, two, three guys in a car, it is a felony stop--at 
least you think it is a felony stop. I mean, those are the 
kinds of things that we confront every day. And by just having 
more guns available, it just doesn't make the situation any 
better.
    In my department, our officers have to go through firearms 
training twice a year, 8 hour segments. Twice a year every 
year. They have to qualify not only with marksmanship, but also 
in their judgment in when to use deadly force. Now, we are 
talking about selling guns over the counter to people who get 
no training, get no supervision; there are no rules, there is 
no nothing. I mean, there are people who right now think they 
can kill an auto thief. Because somebody is stealing their car, 
they have the right to shoot them. And I am here to tell you 
that in most States you can't.
    So those are the kinds of things that you are going to 
have, in addition to the other problems, the inappropriate 
application of the use of deadly force by private citizens, 
because they thought they were threatened. We have very, very 
strict guidelines in policing. We have police officers that get 
indicted, that get sent to jail for inappropriately using 
force. All kinds of regulations. Everybody in the world is 
looking at us. Who is going to be looking at Joe Blow Citizen 
who inappropriately uses deadly force because in their mind 
they thought they were justified, and yet they took a life? And 
there is nothing more serious than taking somebody's life, and 
you better be right when you do it.
    Ms. Watson. Thank you.
    Mayor Williams, I think a lot of the criticism relative to 
the violence in this city is warranted, because it is a very 
violent city. Where do the guns come from?
    Mayor Williams. Congresswoman, again, thank you for your 
leadership where I grew up, in LA. You do a wonderful job, and 
I really appreciate it. And when you talk about those 
neighborhoods in South Central, I know those neighborhoods. I 
still have many family members there. And I know you are 
fighting valiantly to lift those communities.
    We are still a violent city, although, as you know, and as 
Congresswoman Norton has submitted for the record, crime has 
gone down substantially over the last 2 years. And we aim to 
bring it down even further this year and are on track to do 
that. But it is a violent city. And as the Chief reported--and 
he had a documented list of this, which I think we have also 
submitted for the record--Maryland, Virginia lead the 
categories--and he had a list of other areas. The fact is we 
have laws here, but we are in the midst of a very porous 
metropolitan area, so our laws only have limited effect where 
guns are readily available elsewhere.
    But I would join with the Chief and say that where you have 
applied a law and there is, admittedly, in some cases wanton 
disregard for that law, the answer isn't to remove the law; the 
answer is to add to your arsenal the tools to see that the law 
is enforced. So, for example, in our city--and I would argue in 
many cities across the country--there are still too many 
assaults. There still is too much sexual violence. There still 
is too much violence of all kinds. But we don't say, well, 
because so many people are violating the law, let us just 
remove the law. No. We add to our arsenal the tools to see that 
law has greater and greater effect. And I think that applies to 
the use of guns.
    Mr. McHenry. The gentlelady's time has expired.
    Congressman Westmoreland, you are recognized for 5 minutes.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Mr. Mayor, I think in your opening statement you talked 
about the guns--I believe there was about 1,200 or 1,500 guns 
that you all confiscated last year, is that correct? You said 
that they were probably----
    Mayor Williams. 2,000, sir.
    Mr. Westmoreland. I am sorry?
    Mayor Williams. 2,000, sir, the Chief reports.
    Mr. Westmoreland. OK. You said they were probably brought 
in illegally. Wouldn't you say that every one of them was 
absolutely brought in illegally if they were brought in?
    Mayor Williams. If they were brought in, out of the 1,500 
that we actually traced last year--we took in 2,000, but we 
traced 1,500. All but 16 were illegal. There were 16 that we 
got that had been registered prior to the 1976 ban.
    Mr. Westmoreland. But they were legal in the States that 
they came from, they were just here illegally?
    Mayor Williams. Some were legal in the States they came 
from; some had been stolen; some they had lost track of who 
purchased it last, because it had gone through so many hands. 
But there were some that had been legally purchased, but the 
majority of them no longer belonged to the individual who made 
the original purchase.
    Mr. Westmoreland. Mr. Mayor, I know there has been some 
concerns today about Home Rule. Do you believe that Article I, 
Section 8 of the Constitution gives Congress the explicit power 
to enact or regulate legislation in the District of Columbia?
    Mayor Williams. I think technically it has that power. But 
I think that my own personal view is that was a defect in the 
creation of the Constitution. As Mayor of this city, I have 
read God knows how many books now on the history of this city, 
and it isn't as if a lot of thought was given to that 
particular provision; it was put in place to solve an immediate 
problem, and almost immediately everybody involved understood 
that they had created a problem, and they indeed had.
    I am the fourth modern Mayor of the District of Columbia, 
but, indeed, we had a number of Mayors and councils from the 
very creation of this city and from the very beginning that 
complained about this provision. So everybody knew--like the 
whole issue of union, the whole issue of slavery, the whole 
issue of emancipation and voting rights, all these issues--that 
this was a problem that we would get to later, and we still 
haven't gotten to it. I think it is a fundamental issue here.
    Mr. Westmoreland. But you agree that is what the 
Constitution of the United States says, that Congress has the 
explicit power to do that. Do you not agree with that?
    Mayor Williams. Legally, but not morally. I think it is 
wrong.
    Mr. Westmoreland. OK.
    Mayor Williams. I really do, respectfully.
    Mr. Westmoreland. Chief, let me ask you a question. Do you 
all do Neighborhood Watches in the District?
    Chief Ramsey. Yes, sir.
    Mr. Westmoreland. Let us say you were at a Neighborhood 
Watch meeting with some neighbors and someone gave you the 
scenario of coming in and finding their family held hostage by 
someone with a weapon, or let us say someone came in and found 
someone pistol-whipping his wife. If you were at a Neighborhood 
Watch, what would you instruct that neighbor or that homeowner 
to do when he walked into a situation like that?
    Chief Ramsey. I would instruct him to call us. If they are 
not in harm's way, I would instruct them to call 911 as quickly 
as possible. Obviously, in a case of someone being pistol-
whipped, if it was a spouse or something like that, you would 
try to take some action on your own in order to try to stop 
that from occurring, and that would be human nature. But odds 
are there would probably be two victims, as opposed to one. But 
they should contact the police immediately, if that is 
possible.
    Mr. Westmoreland. I believe that you all probably haven't 
had the best 911 response time in the country.
    Let me ask you another question. You are around criminals 
all the time, and I am sure you ask them questions and 
interview them as to crimes they have committed. So let us put 
your criminal mind on for a minute or one that you could 
associate with a criminal. If you were living on the border 
between Maryland and D.C. and you had a drug problem, or if you 
were in need of money or something that you could sell for 
money, and you had a weapon and you were going to make a 
decision on who to rob, would you rob somebody in Maryland that 
had an opportunity to have a weapon, or would you go to D.C., 
where you knew the victim was going to be unarmed?
    Chief Ramsey. Well, I can use a real-life example. I think 
Prince George's County has more robberies right now than we do 
in the District, so I guess that particular----
    Mr. Westmoreland. Well, that is not my question.
    Chief Ramsey. That is your question. You said Maryland or 
the District.
    Mr. Westmoreland. I am saying if you were a criminal--I am 
asking you a question. If you had to make a conscious decision, 
if you were going to commit a crime, would you rather try to 
commit the crime against someone who might be armed or against 
someone that you knew would be breaking the law to be armed?
    Chief Ramsey. First of all, sir, I am not a criminal and I 
don't think like a criminal. So that is No. 1. So I can't 
answer your question. I have no idea what is going through 
their mind.
    Mr. Westmoreland. OK. Let us just----
    Chief Ramsey. No, sir. And you took an unfair shot at us 
and the hard-working men and women of the Metropolitan Police 
Department about response times. Our people have done a 
remarkable job over the last 3 years. We have enjoyed a 9 
percent decrease in 2003, 18 percent last year, and so far 14 
percent this year. We are not perfect, but we don't deserve 
that. We don't deserve it at all. We have people that lay their 
lives on the line every day answering calls for service. We run 
toward danger that most people would be running away from. And 
I am very proud of them, and they don't deserve that, sir. I am 
sorry.
    Mr. Westmoreland. Well, sir, listen. I have police officers 
in Georgia every day that stop cars where the people can have 
guns. So, to me, they are braver stopping the ones that can 
have a gun than somebody without it. But I think you have 
answered my question about which would be the easiest prey.
    But let me say this. You said you had recovered, I think, 
2,000 firearms?
    Chief Ramsey. Yes, sir.
    Mr. Westmoreland. And I believe Mr. Burton read the 
penalty, that the penalty was a minimum of $1,000 and 1 year in 
jail or the maximum of $10,000 and 10 years in jail. Could you 
tell me approximately what percentage of those paid the $1,000 
or served the 1-year in jail, or what percentage of them paid 
the $10,000 and they are serving now or could serve up to 10 
years in jail?
    Chief Ramsey. That information would have to come from the 
U.S. Attorney's Office or the courts. I don't have that 
available to me off-hand.
    Mr. Westmoreland. Is that some information that you could 
get?
    Chief Ramsey. I could certainly make them aware of your 
request, sir, and see whether or not they could look that up.
    Mr. Westmoreland. And isn't it true that the last 
statistics I have for the population, this is estimate 
population for the murders, as verified by the FBI is 2003. New 
York has a population of 8,085,742. They had 597 murders, or 
7.38 murders per 100,000 people. Washington, DC, has a 
population of 563,384, had 248 murders, or approximately 44.02 
murders per 100,000 people. How many of those murders do you 
know that you all solved?
    Mr. McHenry. The gentleman's time has expired, so if the 
Chief would----
    Chief Ramsey. Our clearance rate over the last--and I think 
you are referring to 2003 statistics. Our clearance rate in 
2003 was about 56 percent, if I am not mistaken, right in that 
area. I would have to look it up in order to be able to give 
you the precise number.
    And it is interesting you use New York. They do have good 
gun laws in New York.
    Mr. McHenry. At this time, Congressman Duncan from 
Tennessee is recognized for 5 minutes.
    Mr. Duncan. Well, thank you very much, Mr. Chairman. And I 
know that we need to get on to the next panel, so I will try to 
be very brief. I am curious about one thing. There have been 
instances in the past or over the last many years where D.C. 
residents have shot criminals in their homes, and I wonder do 
you know if any or how many of those have been prosecuted 
because those guns have been illegal? I was told that none of 
those people have been prosecuted in all those years. Is that 
correct?
    Chief Ramsey. I would have to do some research, 
Congressman, because I am not aware of any inordinate number of 
instances where we have had people shooting others inside their 
home in protection of themselves. I am sure that it is possible 
that could have happened. I would have to check to find out how 
many justifiable homicides we had in any given year.
    And we do average anywhere from three to four justifiable 
homicides a year. Most of those are police shootings, however. 
So I would have to check to find out how many citizen 
homicides--because it still counts as a homicide, it just 
doesn't count as a criminal homicide--we had in any given year, 
and I would be glad to get that information to you.
    Mr. Duncan. Well, let me ask you this. I spent 7\1/2\ years 
as a criminal court judge in Tennessee trying the felony 
criminal cases, and I had, I can tell you this, almost 
unanimous support from my local law enforcement people. And you 
do have things going in the right direction, I will give you 
credit for that.
    On the other hand, I will say that, unfortunately, we have 
over 2 million people now in the prisons and jails of this 
country, and a lot of that is that we have started locking up 
for much longer sentences the violent criminals and the 
criminals who have used guns. It is a shame that we have that 
many people locked up, but it was necessary to do it. And what 
that has done, that has brought down the crime rate in almost 
every city in this country. So that same trend line has taken 
place in almost all the cities.
    Yet, a witness in the second panel will say this: over the 
last 5 years, the District, never far out of the running, had, 
in three of those years, the highest murder rate among cities 
over 500,000. The other 2 years the city ranked second and 
third. It seems clear that D.C. residents need more protection 
than they are receiving. Nor has there been any success in 
Chicago, the only major city to have roughly similar laws, and 
a city that has consistently had the highest murder rate of the 
10 largest U.S. cities.
    What do you say to that?
    Chief Ramsey. Sir, I guess, you know, I mean, statistics 
can say whatever you would like them to say. And if all that is 
true, fine. I don't think the solution is in putting more guns 
on the street. I just don't. I mean, I have been a policeman 
for 36 years, and I have been in many situations and, believe 
me, I just do not think that we need more guns on the street. I 
just don't believe that.
    We have worked very hard to get our murder rate down. 
Granted, our past has not been all that great. But we are 
moving in the right direction. As I said before, we are at 
about a 20-year low now, and we are even under that so far this 
year. And we are going to continue to aggressively fight crime 
in our city. It is not perfect. It is not going to get down to 
zero, maybe, but we are doing everything we possibly can.
    But introducing more guns on the street, there is going to 
be a lot of these guns that are going to be used 
inappropriately by people who would not otherwise be committing 
crimes, but during road rage, domestic disputes, or other types 
of situations they find themselves in. That handgun being 
available, I am afraid we are going to have some tragedies. I 
hate to see it.
    Mr. Duncan. All I can say is a better job is going to have 
to be done, because this city has more police officers than any 
city in the entire world by far, when you add in the D.C. 
police force, the Capital Police force, the Park Police, all 
these other institutions that have all these police forces. You 
have all these Federal law enforcement officers all over the 
place here. It is an astounding number of law enforcement 
officials. And to have these kinds of statistics is just almost 
beyond comprehensive, when you consider the number of law 
enforcement personnel in this city.
    And I think you can talk about statistics, but every place 
in this country where they have fewer or more lenient gun laws, 
the crime rates are at the lowest; and where you have the 
toughest or strictest gun laws, the crime rates are at the 
highest. And you look at Virginia and Maryland and these 
surrounding places where you say these guns are coming from, 
but they have more lenient gun laws and, yet, their crime 
rates, murder rates, and all these other violent crime rates 
and use of guns, they are so much lower. It just makes you 
shake your head in amazement at what is going on here.
    So I certainly don't have all the answers, but somebody 
ought to be ashamed on all this that is going on in this city.
    Chief Ramsey. Well, Congressman, I would like to say that 
it is true we have a lot of police departments that operate in 
the District of Columbia. There is only one that answers 911 
calls, and that is the Metropolitan Police Department, and 
there are 3,800 of us. The Capitol Police protect the Capitol, 
and you have about two cops for every Congressman up here on 
the Hill, so it is a very safe place. We have the Federal 
protective FBI, Secret Service. They all have their own 
responsibilities, and those responsibilities do not include 
regular routine patrol and answering 911 calls for service. 
That falls on the Metropolitan Police Department.
    And, in addition to that, we also have the responsibility 
of assisting those Federal agencies in providing protection for 
the President, the Vice President, visiting dignitaries, and 
all these different security alerts that take place, protests 
that take place in the District of Columbia, not against the 
local government, but against the Federal Government, but we 
are charged with the responsibility of maintaining order.
    So there are a lot of responsibilities inherent in being a 
member of the Metropolitan Police Department that other 
jurisdictions have no clue as to what all it entails. And I 
think our people do an outstanding job. They have nothing to be 
ashamed of.
    Mr. Duncan. Well, all I can say is this. I live in an area 
where there is heavy tourism, and we have millions of people 
coming to our area and through that area, and we have about 
one-eighth or one-ninth the number of police officers per 
population. So it looks like to me like something better and 
more is going to have to be done.
    Mr. McHenry. The gentleman's time has expired.
    At this point we will allow Delegate Norton to have a final 
set of questions.
    Ms. Norton. Very few questions.
    And I know the Mayor and the police chief are always under 
pressure to bring crime down, and I do want to congratulate you 
that you are at a 20-year low in crime and in homicides in the 
District of Columbia. You deserve great credit for that. And 
you have a lot of pressure from our own residents--you don't 
need any from anybody up here--because they are the ones that 
have to live with it. And I think the record needs to show that 
the rate has gone down very substantially.
    I do appreciate the members who have offered statistics on 
the number of homicides in the District of Columbia, because 
they have made the very best argument for why we should not 
introduce more guns into this city.
    I would just like to clear up one thing. There was a 
question that asked you, Chief Ramsey, about guns you have 
taken off the streets, and asked you how many of these people 
had to pay a $1,000 fine and got the 1-year in jail for 
possession of firearms. Is it not the case that most of the 
guns that you take from people on the streets are taken from 
criminals and felons, who would not be charged, usually, simply 
with possession, but would have much heavier charges because 
they shouldn't have had the guns in the first place?
    Chief Ramsey. That is true, ma'am, and that is a good 
point. A lot of times the U.S. Attorney's Office or the AG will 
not move forward with those charges because they have more 
serious charges placed against the individual, and those gun 
charges tend not to be placed. There are some instances where 
they are. I don't know, off the top of my head, how often that 
occurs, but because in most instances they are charged with 
other crimes, they are not charged with those particular 
crimes.
    Ms. Norton. The Congress is full of folks who like to talk 
about handling guns and just being ready for people who might 
break in. I would hate to have any of them actually tested one 
night to see if they really were ready when somebody broke in.
    But I really would like to just straighten this matter of 
leveling the playing field out, about who is most likely to 
have the advantage, a gun experienced in breaking in and 
handling a gun in holdups, or a homeowner who is caught unaware 
if somebody breaks into his or her home. I mean, let us discuss 
the real level playing field here. Is the citizen likely to 
have a level playing field if she or he is up against an 
experienced criminal?
    Mayor Williams. I would like to let the Chief speak to the 
dynamics of the situation, but I just want the record to 
reflect what the Chief reported but I think went unrecognized, 
and that is I applaud my friend and colleague, Jack Johnson, 
and what he and the chief are trying to do out there in Prince 
George's County, but the fact is Prince George's County and 
Maryland have more lenient gun laws than the District, and 
crime has been going up out there, as opposed to the District.
    So if you take the philosophy that more lenient gun laws 
and this more level playing field is going to result in a 
reduction of crime, it is not proving true in just that one 
comparison--and I could give you others--statistically.
    Chief Ramsey. And, ma'am, I don't know who has an advantage 
in that particular situation. But I do know who has a 
disadvantage, and those are the people who are standing around 
the two guys with the guns, because they are the ones that are 
more likely to get shot than the people that they are shooting 
at. And that is just from experience. That is just what 
normally happens, is that the people who have nothing to do 
with it at all wind up catching a round and wind up getting 
seriously injured or killed as a result of it.
    So each situation is different. You know, getting to a gun, 
being able to locate it, being able to fire, knowing when the 
use of deadly force is appropriate. And I think that is a key 
issue here. Again, police officers go through hours and hours 
and hours of training in the use of deadly force and the 
handling of a firearm. We sell weapons to citizens and there 
are no rules of engagement.
    So that is just something that has to be seriously 
considered should something like this wind up taking place, is 
that you can't just lift the ban and just leave it open for us 
to try to figure out what to do. There are a lot of serious 
consequences to this if it should go through.
    Ms. Norton. Important point.
    Chief, I know that in all the crime town meetings in the 
city I have been to, police say give it up, give up your money. 
I mean, if somebody is pointing a gun at you, it is hard for me 
to believe that a police officer would say shoot it out and may 
the best man win.
    Chief Ramsey. Well, there are studies, ma'am, that show 
that the person who has a gun drawn on you has an advantage. 
There is something called lag time, the time it takes for you 
to be able to actually respond, should you be in a situation 
like that. It depends on the frame of mind of everybody 
involved. There are so many factors.
    But it really, I think, is beside the point in a sense that 
the real people that are at a disadvantage are the children 
playing in a schoolyard, people sitting on their front porch, 
other people that are out. You know, we are trained not to fire 
if the background isn't clear, meaning that if that bullet 
should miss the target, what is behind it, because, again, you 
could unintentionally shoot and seriously injure or kill 
someone else. All those things go into the training of a police 
officer.
    And I think that when we find ourselves in a situation 
where we have gone back to that old movie I talked about before 
with Wyatt Earp, with everybody being armed--which, by the way, 
there is another section of that movie that says their murder 
rate was actually higher than that of New York City in its hay-
day--you know, we go right backward to that. And I just think 
that a lot of innocent people are going to wind up suffering. 
There are unintended consequences from this action. No one is 
intentionally trying to do this, but there are serious 
unintended consequences to lifting our gun ban.
    Ms. Norton. One last note.
    Mayor Williams. And I would add, Congresswoman Norton, I 
think there are unintended consequences to what I think is just 
a breathtaking usurpation of what limited Home Rule we have. I 
think we need to decide, do we want the District officials to 
run the District government or someone else? For someone who 
has worked as aggressively as I have with the Federal 
Government to try to bring the District forward, and suffered, 
as you know, all the brick bats and criticisms of my 
constituents and colleagues and media cognoscenti about being 
too lenient, to have to turn around now and go back to my 
people and say the reward for good behavior and everything that 
we have done is to undermine something so fundamental to 
democratic free will, to me is just tragic. It is horrible. I 
can't over-emphasize that.
    Ms. Norton. And in a real sense that says it all.
    Mr. Mayor and Chief Ramsey, let me just ask you this final 
question. You have town meetings around the city all the time. 
Police go to Mayor's town meetings; you each have your own town 
meetings. When you go to these town meetings, is there any 
sentiment in the District of Columbia for weakening our gun 
safety laws? What do you pick up from people who talk to you 
about guns?
    Chief Ramsey. Ma'am, I have not heard any meeting--I can't 
say anyone; there are certainly those proponents that would 
like to see the ban lifted, I would imagine. In fact, I know 
there is one that will testify, at least a couple that will 
testify a little later on. But for the most part people do not 
even discuss it, and if they do, they talk about gun violence 
and our need to get more guns off the street; and why don't we 
do gun buy-backs and why don't we do this and why don't we do 
that. The focus is always on what can we do to get more guns 
off the street.
    Reverend Young, earlier this year, started something where 
he started a gun buy-back program. And like the gentleman 
mentioned who said that they had it in his community and they 
ran out of money, well, Reverend Young ran out of money too. 
Reverend Young is the minister that presided over Princess 
Hansen's funeral and a couple other funerals of young people in 
the District.
    Again, the emphasis and the focus is on how can we get 
these guns out of the hands of people, as opposed to anything 
else, for the most part.
    Mayor Williams. I would agree with that, Congresswoman. In 
hundreds and thousands now of questions at community meetings 
and thousands of e-mails, I have not detected a significant 
concern about this issue. I would just echo what the Chief has 
said. It is to bring more enforcement, not less, to the gun 
laws.
    Ms. Norton. Well, I want to thank both of you, because for 
the Mayor and the police chief to spend this kind of time 
outside of their jurisdiction actually, I think, says all we 
need to know about the importance of this issue to you.
    And I want to thank you, Mr. Chairman, for the leeway you 
have given all of us to ask questions.
    Chief Ramsey. Thank you, ma'am.
    Thank you, Mr. Chairman.
    Mr. McHenry. Thank you, Delegate Norton.
    At this time this panel is dismissed. I certainly 
appreciate you dealing with our lovely congressional schedule. 
Unfortunately, Chairman Davis was not able to come back. I know 
he did want to have a conversation with you all. Thank you all 
for testifying.
    At this time we will recess for 2 minutes.
    [Recess.]
    Chairman Tom Davis [presiding]. Please rise with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. We will start with Dr. John Lott, the 
resident scholar from the American Enterprise Institute; 
followed by Robert Levy, senior fellow in Constitutional 
studies at the Cato Institute; Robert Peck, president of the 
Greater Washington Board of Trade; Pastor Lionel Edmonds, Co-
Chair of the Washington Interfaith Network; Sandra Seegars, a 
District of Columbia resident; Tyrone Parker, executive 
director, Alliance of Concerned Men; and Francine Lowe, 
District of Columbia resident.
    Mr. Levy, would you just raise your right hand right there?
    [Witness sworn.]
    Chairman Tom Davis. We are going to start with Mr. Lott and 
move straight on down. Your entire statements are in the 
record, so you don't have to take the full 5 minutes.
    Mr. Lott, thanks for being with us.

   STATEMENTS OF JOHN R. LOTT, JR., PH.D., RESIDENT SCHOLAR, 
AMERICAN ENTERPRISE INSTITUTE; ROBERT A. LEVY, SENIOR FELLOW IN 
   CONSTITUTIONAL STUDIES, THE CATO INSTITUTE; ROBERT PECK, 
PRESIDENT, GREATER WASHINGTON BOARD OF TRADE; PASTOR H. LIONEL 
   EDMONDS, CO-CHAIR, WASHINGTON INTERFAITH NETWORK; SANDRA 
    SEEGARS, DISTRICT OF COLUMBIA RESIDENT; TYRONE PARKER, 
  EXECUTIVE DIRECTOR, ALLIANCE OF CONCERNED MEN; AND FRANCINE 
              LOWE, DISTRICT OF COLUMBIA RESIDENT

             STATEMENT OF JOHN R. LOTT, JR., PH.D.

    Mr. Lott. Thank you very much. Thank you, Mr. Chairman and 
distinguished panel members. I appreciate your time here today.
    Guns make it easier for bad things to happen, but they also 
make it easier for people to protect themselves and prevent bad 
things from happening. And what concerns us all is what is the 
net effect that guns have on crime. Does it increase or 
decrease murders? The impacts it has on rape, robberies, and 
aggravated assaults.
    We all want to keep guns away from criminals, but the 
problem that you basically run into is that when you pass these 
different type of gun control laws, it is the law-abiding 
citizens, and not the criminals, who are most likely to obey 
them, you can actually see increases in crime rather than 
reductions in crime.
    My own research shows that police are the single-most 
important factor for reducing crime. Surely, Police Chief 
Ramsey talked about some of the things that he is doing to 
increase arrest rates and conviction rates. But even though 
they are extremely important, one thing I think is clear, and 
one thing that the police themselves understand, when you look 
at surveys of them or talk to them in different places, and 
that is they realize that they virtually always arrive on the 
crime scene after the crime has been committed.
    In D.C., in 2003, the average response time for priority 
one calls was about 8 minutes and 25 seconds. So the question 
that you run into, then, is what do you advise someone to do 
when they are having to confront a criminal by themselves, if 
they have to wait that 8\1/2\ minutes before the police can 
arrive, and then assuming that they can make a 911 call.
    And there is a lot of evidence on this. Probably the 
largest study that has been done is the National Crime 
Victimization Survey done by the Department of Justice, which 
surveys about 100,000 to 150,000 people each year, and it has 
been doing this survey for about 25 years now, almost. And what 
they find is that you look at victims of crime, you find how 
they responded to the crime, you found how the criminal 
responded--was the criminal armed or not--what was the type of 
crime that was involved; what were the circumstances, time of 
day, many different factors that were there--did it occur in a 
house, outside the residence. And what you can find is that 
given the residence or given that victims respond in different 
ways, what was the probability of serious injury to them with 
all those different factors.
    And what you find is that by far the safest course of 
action for victims to take is to have a gun. We frequently hear 
that passive behavior is a safe course of action. We heard that 
today. And there is a kernel of truth to it, but when you look 
at the survey, you find, in fact, that is very misleading and 
actually dangerous advice. If you compare passive behavior to 
all forms of active resistance lumped together, passive 
behavior is, indeed, slightly safer.
    But the problem with it, and the reason why it is 
misleading is that, under active resistance, you are lumping 
together 10 different types of active resistance, everything 
from yelling and screaming, running away, a baseball bat, mace, 
a knife, a gun, or a stun gun. Some of those are indeed much 
more dangerous than passive behavior.
    For example, for a woman, by far the most dangerous course 
of action for her to take when she is confronted by a criminal 
is to use her fists. There is a very simple reason for that, 
and that is you are virtually always talking about a male 
criminal doing the attacking. In the case of a female victim 
and a male attacker, there is a large strength differential 
that exists there. The second most dangerous course of action 
for a woman to take is to run away. If she can run away and 
escape, that is great. But the problem is that women victims 
tend to be significantly slower runners than men are, and in 
the process of being tackled and subdued significant injury 
frequently results.
    Again, as I say, if you look through these numbers--and I 
am happy to go through it more in depth--by far the safest 
course of action is particularly true for people who are 
relatively weaker physically--women and the elderly--is to have 
a gun.
    There are other things that have been brought up today 
about fears about what might happen. We see this debate 
occurring time after time. We have 37 States now in the United 
States that have ``right to carry'' laws. A lot of the concerns 
about people using guns improperly, in the heat of the moment, 
other things that could happen, in these States you 
consistently find that the people who carry these concealed 
handguns tend to be extremely law-abiding, they lose their 
permits for any type of gun related violation at hundreds or 
thousands of 1 percentage point, and virtually always for 
fairly trivial types of violations.
    There were discussions today about the assault weapons ban. 
I find it a little bit interesting it was just brought up 
today, because just a few weeks ago we had the first crime 
numbers come out after the assault weapons ban sunset last 
year, and there was obviously a lot of concern about what would 
be happening to crime. Well, it turns out now that murder rates 
and robbery rates fell last year. Murder rates fell by 3 
percent. And, more interestingly, the murder rates fell by more 
in the States that didn't have their own assault weapons ban--
over 4 percent--than the States that did have an assault 
weapons ban of their own.
    We could talk about other things. The risks of having guns 
in the home is something that has been brought up multiple 
times. There are a couple of serious issues with the study that 
people were citing earlier in the testimony, and that is that 
what they would do is they would look at a city over the course 
of a year, identify people who had been killed or injured from 
a gun, and then ask the relatives of the deceased whether a gun 
was owned in the residence.
    Then, as a comparison group, they would find people who 
lived within a mile who were the same age, sex, and race, and 
ask them whether they owned a gun. And they would run a 
regression that would say what is the probability of dying 
based on whether a gun was said to be owned in the home.
    When people have gone back and looked at that data, what 
they found is that in only, at most, 14 percent of the deaths--
and that includes suicide, was the gun in the home that was 
mentioned in the survey actually the weapon that was used in 
the death. Eighty-six percent of the time it was from weapons 
being brought in from the outside, which raises an issue of why 
it would have been beneficial for them to own a gun.
    But, on the other side, they only count as benefits times 
when you actually killed the attacker. Killing the attacker in 
self defense occurs fewer than once out of every 1,000 times. 
You are ignoring the benefits from simply brandishing the gun 
and you are ignoring even times where you would wound the 
attacker or fire a warning shot.
    Now, what I would like to try to do in the brief minute or 
so that I have left, is just to turn to some data, because--if 
I could see the first slide there--we have been talking about 
what might happen after the D.C. ban was removed. Well, one 
thing you can go and look at is what happened when the ban was 
imposed to begin with. In the 5-years before the D.C. ban in 
late 1976, murder rates declined from about 37 to 27 per 
100,000 people. In the 5-years afterwards, they went up to 35 
per 100,000 people.
    And you can see from the graph here--and 1976 is the line 
there--there is only 1 year between 1976 and, in fact, today, 
that you find a murder rate even just slightly below the murder 
rate that existed in 1976 before the ban went into effect. And 
even that it is a small tenth of a percent difference in terms 
of murder rates.
    Now, one of the things that the police chief was bringing 
up is he would talk about numbers in terms of the number of 
murders. One concern just to bring up there and keep in mind is 
that the population in D.C. has fallen by about 20 percent over 
that period of time. And when you take that into account, it 
helps explain why the murder rates--in 2004, for example, the 
murder rate, even with all the drops that they were talking 
about, was still about 30 percent higher than the murder rate 
was in 1976.
    Can I see the next slide, please?
    This shows you how violent crime rates have changed before 
and after the ban went into effect. You basically find that 
violent crime rates were falling, on average, prior to the law 
going into effect, were rising for the next 7 years basically, 
and they have gone up and down since then. But, again, after 
that point in time there have been 2 years after 1976 where the 
violent crime rate was as low or as low as it was when the ban 
went into effect; all the rest of the time it has been 
dramatically higher than that.
    Now, you can compare D.C. to the changes in murder rates or 
violent crime rates in Maryland or Virginia, the next graph 
that is there. And it is very difficult--that is for murder. Or 
you can look at the next slide for violent crime rates.
    And it is very hard to see. Violent crime rates were 
falling relative to Maryland and Virginia up until 1976, and 
then they were flat or rising in the period of time afterwards.
    And I can go and show you the numbers for Chicago--I won't 
go through that right now--and other places in the United 
States, but Chicago you actually see a very big increase in 
robbery rates after they instituted their ban. And if you 
compare it relative to the counties that surround it, you see 
very large increases that occur in either murder rates or--why 
don't we skip a couple slides just to show you. Next one.
    That is robbery rates. That just shows you how the robbery 
rates changed before and after the Chicago gun ban.
    The next slide, please.
    That shows you, when you compare the murder rates relative 
to the counties that are surrounding Chicago, how there was a 
substantial increase in Chicago murder rates relative to the 
surrounding counties.
    And if you show the next slide, that shows you how violent 
crime rates changed.
    You know, the bottom line--and I have data in here from 
Australia and from England that show you after they had their 
bans.
    It would be nice if simply banning the guns took guns away 
from criminals. But the problem is that it seems to be mainly 
the law-abiding citizens, and not the criminals, who obey these 
rules. And you end up having unintended consequences in terms 
of higher crime rates, at least, certainly not lower, as a 
result of these changes.
    Thank you.
    [The prepared statement of Mr. Lott follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.031
    
    [GRAPHIC] [TIFF OMITTED] T2473.032
    
    [GRAPHIC] [TIFF OMITTED] T2473.033
    
    [GRAPHIC] [TIFF OMITTED] T2473.034
    
    [GRAPHIC] [TIFF OMITTED] T2473.035
    
    [GRAPHIC] [TIFF OMITTED] T2473.036
    
    [GRAPHIC] [TIFF OMITTED] T2473.037
    
    [GRAPHIC] [TIFF OMITTED] T2473.038
    
    [GRAPHIC] [TIFF OMITTED] T2473.039
    
    [GRAPHIC] [TIFF OMITTED] T2473.040
    
    [GRAPHIC] [TIFF OMITTED] T2473.041
    
    Chairman Tom Davis. Thank you very much.
    Mr. Levy, thank you for being with us.

                  STATEMENT OF ROBERT A. LEVY

    Mr. Levy. Mr. Chairman and distinguished members, thanks 
very much for inviting me to testify. I want to comment very 
briefly on the Home Rule question, since that came up several 
times. The question was raised why shouldn't D.C. officials run 
the D.C. government. Well, the short answer is because D.C. 
officials are violating the U.S. Constitution.
    Now, Congress has expressly set out in Article I, Section 
8, has plenary power over the District of Columbia. Moreover, 
every Member of Congress has an independent and affirmative 
obligation to uphold our Constitution. So if the District's 
handgun ban violates the second amendment, as it almost surely 
does, then Congress should act to defend D.C. residents' second 
amendment rights, much as Congress would act if a State were 
violating rights of free speech or discriminating against 
racial or religious minorities. The question in all of those 
cases is whether the challenged law is Constitutional. And, in 
D.C., the gun ban is indisputably unConstitutional.
    I support the principles underlying H.R. 1288, but I must 
say that I oppose enactment of the bill at this time. My 
written testimony establishes four points: first, the second 
amendment secures an individual, not a collective right; 
second, the second amendment indisputably applies to the 
District of Columbia, despite the fact that D.C. is not 1 of 
the 50 States; third, District residents and other citizens 
across the Nation can best secure their second amendment rights 
through the judicial process, not through the D.C. Personal 
Protection Act; and, fourth, Congress should, for that reason, 
step aside at least until Parker v. District of Columbia, which 
is the second amendment challenge to the D.C. gun ban, is 
resolved in Federal court.
    Of course, I would be happy to answer questions on any of 
those points, but in the next few minutes I want to focus on my 
third and fourth points exclusively. So let us begin with this 
question: How can D.C. residents most effectively secure their 
second amendment rights? And then I will discuss the best role 
that I think Congress should play.
    To permanently guaranty the rights of D.C. residents, a 
Constitutional challenge to the District's gun laws should be 
brought in a Federal court, like the D.C. Circuit, where there 
is no adverse precedent. Preferably, the challenge should be 
civil, not criminal, filed by sympathetic, law-abiding 
plaintiffs, not bank robbers or drug pushers.
    And, in fact, that case is now in litigation. In 2003, 
three local attorneys and I filed Parker v. District of 
Columbia, pro bono, on behalf of six D.C. residents. The case 
is not about machine guns; it is not about assault weapons. It 
is about the right to own an ordinary, garden variety handgun. 
Nor do the plaintiffs argue in that case for the right to carry 
a gun outside their home. That is another question for another 
day.
    This case is about a pistol in the home for self defense. 
In effect, no one in the District can possess a functional 
firearm in his or her own residence, and the law applies not 
just to unfit persons like felons or minors or the mentally 
incompetent, but across the board to ordinary, honest, 
responsible citizens.
    There have been more than three dozen challenges to the 
D.C. law that have already been filed, mostly by criminals who 
are serving longer sentences for gun possession. The Parker 
case is quite different. The lead plaintiff, Shelly Parker, a 
young lady who resides in the heart of D.C., where she and her 
neighbors are relentlessly harassed by the drug dealers. Ms. 
Parker decided to do something about it. She called the police; 
she organized block meetings; and she encouraged her neighbors 
to complain.
    Not surprisingly, she was labeled as a troublemaker by the 
dealers, who threaten her at every opportunity. One dealer, in 
fact, tried to pry his way into her house repeatedly yelling, 
``Bitch, I'll kill you. I live on this block too.'' But Ms. 
Parker knows that the police are unlikely to shut down the drug 
traffic on her block, and she would like to possess a 
functional handgun within her home for self-defense. But she 
fears prosecution because of D.C.'s unConstitutional ban.
    A second plaintiff is a private police officer who carries 
a handgun to provide security for the Thurgood Marshall 
Judicial Center. But when he applied for permission to possess 
a handgun within his home to defend his own household, the D.C. 
government turned him down.
    The six plaintiffs in Parker live in D.C., they pay their 
taxes in D.C., and they obey the laws in D.C., but the District 
of Columbia says that if somebody breaks into their house, 
their only choice is to call 911 and pray that the police 
arrive in time. That is not a good enough choice. The right to 
keep and bear arms includes the right to defend your property 
and your family and your life, and no government should be 
permitted to take that right away.
    And, yet, that is why I argue that Congress should step 
aside until Parker v. District of Columbia is resolved. Parker 
is now pending before the U.S. Court of Appeals for the D.C. 
Circuit. If H.R. 1288 is enacted, the lawsuit will be dismissed 
as moot. Plaintiffs, of course, cannot challenge a law that no 
longer exists. Otherwise, Parker could well be headed to the 
Supreme Court, and that is where it belongs.
    It is a compelling case. The citizens of this country 
deserve a four-square pronouncement from the Nation's highest 
court about the real meaning of the second amendment for all 
Americans, not just the residents of D.C.
    Temporarily, the rights of D.C. residents can be secured 
either by litigation or by legislation. But the Parker 
plaintiffs know--indeed, we all know--that a narrow bill aimed 
at the D.C. Code could easily be repealed by the next anti-gun 
Congress, and the bill will have no effect outside of the 
District. That means it will have negligible impact on second 
amendment rights when contrasted with an unambiguous 
proclamation applicable across the Nation from the U.S. Supreme 
Court.
    Thanks very much.
    [The prepared statement of Mr. Levy follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.042
    
    [GRAPHIC] [TIFF OMITTED] T2473.043
    
    [GRAPHIC] [TIFF OMITTED] T2473.044
    
    [GRAPHIC] [TIFF OMITTED] T2473.045
    
    [GRAPHIC] [TIFF OMITTED] T2473.046
    
    [GRAPHIC] [TIFF OMITTED] T2473.047
    
    [GRAPHIC] [TIFF OMITTED] T2473.048
    
    [GRAPHIC] [TIFF OMITTED] T2473.049
    
    [GRAPHIC] [TIFF OMITTED] T2473.050
    
    [GRAPHIC] [TIFF OMITTED] T2473.051
    
    [GRAPHIC] [TIFF OMITTED] T2473.052
    
    Chairman Tom Davis. Thank you very much.
    Mr. Peck.

                    STATEMENT OF ROBERT PECK

    Mr. Peck. Thank you, Mr. Chairman. And I particularly want 
to thank you for all that you do to make the greater Washington 
area such a great region. My name is Bob Peck, and I serve as 
president of the Greater Washington Board of Trade. I also want 
to thank--since we have a regional group--the members from 
Maryland who came here to uphold the District's right to enact 
its own laws and make them stick. And I also want to thank 
Congresswoman Watson for staying here for so long during this 
hearing too.
    The Board of Trade consists of about 1,200 members who 
represent 40 percent of the region's private sector work force, 
and I would note to you that 80 percent of this region's work 
force is in the private sector. As a voice of business in the 
National Capital Region, we have been deeply troubled by 
attempts over the past year to repeal the gun safety laws that 
were in place to protect the families, workers, and tourists in 
the District of Columbia.
    Today, Washington is in the midst of an economic 
renaissance. It has earned the acclaim of urban advocates 
throughout the country and the world and has captured the 
interest of investors throughout the world, even more 
important. For 2 years running, we have been rated as the best 
place to invest in real estate in the entire world. Downtown 
blocks that were once lined with vacant or dilapidated 
buildings now comprise the second largest office market in the 
Nation, behind only Midtown Manhattan. We have crowds on the 
streets daytime and nighttime, and we have tourism back up to 
levels that we haven't seen since September 11th.
    From January 2002 to December of this year, 5,000 new 
residential units will have opened in Downtown Washington, an 
area that was once an office area only. As a District employer 
ourselves, the Board of Trade, which has been in the city for 
115 years, vividly recalls worse times in this area, and we 
take considerable pride in our city's transformation.
    To sustain this climate of economic revival and this 
outcome, our city's elected officials and business leaders have 
worked hard to overcome the perception that Washington is not a 
safe place to bring the family. And I submit to you that the 
economic numbers that we have posted over the past few years 
are proof that we have made that stick.
    And I have to say that I am appalled at the comments we 
have heard today about the Nation's Capital. I think it is a 
deliberate attempt to malign the people, the businesses of this 
city, and it has the effect of making our Nation's Capital look 
bad not only to our country, but to the entire world.
    Moreover, the comments are just untrue and unfair. We have 
a hardworking employee community here, and you would not know 
it to have heard what we heard from some of the Members today. 
We also, I have to say, have a hardworking, effective police 
force and I was particularly appalled to hear our police 
department maligned the way it was today.
    Passage of the D.C. Personal Protection Act would garner 
plenty of national attention for the city by reinforcing the 
harmful perception, no longer true, that the District is a 
haven for crime. Our business community has worked hard, 
invested dollars, and taken risks to bring this community back 
together and some of the rhetoric we have heard here today 
threatens our success.
    We know that there is work to do in the District of 
Columbia. We know that we have room for improvement on the 
crime front. We wish, quite honestly, that some of the Federal 
police forces here spent more time working with our 
metropolitan police to patrol all the areas of the city. I know 
that Ms. Norton promoted legislation that would have the other 
Federal police forces cooperate with the metropolitan police. 
We support the police department and its chief. We do not think 
that this area needs a change. We do not think that we are 
doing so well that we do not want to see a change in our basic 
gun laws.
    I also have to tell you I am appalled at this notion that 
people who go buy a weapon are going to go out and use it 
presumably whenever they feel like it. In my training as a 
military officer and in what I have seen of police training, 
including in my stint in the Government when I had a Federal 
police force under my jurisdiction, I know how hard all of us 
who have been authorized to use weapons are trained not only in 
using them, but in when not to use them. And I doubt that we 
would find the sympathy among the supporters of gun repeal for 
very extensive training among our private citizens for how 
safely to use a weapon or to learn, for example, fire 
discipline or rules of engagement.
    We will continue to support responsible and collaborative 
efforts to improve the safety of District communities, and we 
will continue to fight the imposition of policies that could 
take our city back to a time most of us would rather forget.
    And finally, I will say this about the business community 
and the D.C. government. We do not support everything that the 
D.C. Council does. We do not support everything that the 
executive branch of the District government does. But we sure 
as heck do support the right of D.C. citizens to fight out our 
policy disputes in our own forums. We win some in the business 
community, we lose some in the business community, and that is 
the way democracy is supposed to work in towns and cities all 
over the country, and we think that should be true in 
Washington also.
    Thank you very much.
    [The prepared statement of Mr. Peck follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.053
    
    [GRAPHIC] [TIFF OMITTED] T2473.054
    
    Chairman Davis. Thank you very much.
    Pastor Edmonds, thank you for being with us.

             STATEMENT OF PASTOR H. LIONEL EDMONDS

    Pastor Edmonds. Good afternoon, Congresswoman Norton, my 
Congresswoman, Congresswoman Watson, and Chairman Davis. My 
name is H. Lionel Edmonds and I am a co-chair of the Citizens 
to Save D.C. Gun Safety Laws. I also am the pastor of Mount 
Lebanon Baptist Church in Northwest Washington, D.C., and I 
serve as president of the Washington Interfaith Network.
    I would first like to thank Chairman Davis for the 
compassionate leadership that you so graciously offer to the 
citizens of the District. The District of Columbia as well as 
the Nation is both blessed by your efforts to make the places 
where we work, worship, and live environments that enrich and 
enlarge us.
    My first contact with a gun came as a small child in the 
great State of Indiana, Congressman Burton's home State, in the 
city of Fort Wayne, in the home of my Uncle Jesse, the 
neighborhood barber. His son Marshall and I had just finished 
playing some catch in the backyard of the house. We ran into 
the house to refresh ourselves when Marshall went somewhere in 
Uncle Jesse's room and came back out with a loaded gun. ``Look 
what I found,'' Marshall said. ``I saw this game on television 
called Russian Roulette, let's play some of that.''
    Thank God that the bullet that was left in the chamber of 
that gun by accident never was fired. Yet, I cannot help but to 
think that the trouble that Marshall got into later on in life 
first found fertile soil within the curious little mind of that 
little boy in a barber's house.
    I support the gun safety laws in the District. These laws 
attempt to limit the access to guns. Such laws may prohibit the 
curiosity of children who may by chance come across a gun in 
the home of a relative or a friend and may use it for something 
other than its intended purpose.
    As the pastor of a church just a couple of blocks from this 
place where our testimony is now being given, I could tell you 
if time permitted the countless number of tearful funeral 
services that I have both participated in and conducted where a 
little boy or girl's cold corpse lays still in a coffin all 
because of a senseless verbal argument which led to someone 
going back home to get ``my mother or father's gun.'' Places of 
worship ought to be places where young people gather to 
celebrate life, not to weep and cry over its ending.
    How can anyone be pro-life, pro-family, pro-marriage, and 
pro-gun at the same time? Repealing the gun laws in the 
Nation's Capital is a gamble where too much is at stake. The 
parent or adult may purchase the gun for protection and yet 
they are promoting the idea within the conscious of their child 
that it is all right for me to take some matters into my own 
hands. Children ought to be learning on the computer or reading 
a book in the house, not coming across a misplaced case of 
bullets and then bring them to school for show and tell.
    Thank you so much, Chairman Davis, for your leadership on 
this issue.
    [The prepared statement of Pastor Edmonds follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.055
    
    Chairman Davis. Thank you very much.
    Let me just note, I was gone because we had an amendment on 
the floor I had to sit there and rebut, it was the committee's 
jurisdiction, and that is where some of the other Members are, 
too. So we are holding down the fort. But thank you very much 
for staying with us.
    Ms. Seegars, thanks for being with us.

                  STATEMENT OF SANDRA SEEGARS

    Ms. Seegars. Good evening, and thank you for holding this 
hearing. I am a resident of Congress Heights in Southeast 
Washington, DC. I am the chairperson of Advisory Neighborhood 
Commission 8E, a commissioner with the D.C. Taxicab Commission, 
a member and the public relations person for the Seventh 
District Metropolitan Police Department Citizen Advisory 
Council, member of the National Rifle Association, and an 
unchallenged candidate for president of the United Planning 
Organization ``Petey'' Green Center.
    I do not support the current gun laws of the District of 
Columbia. I do support repealing the strict gun ban laws in the 
District.
    Repealing the current handgun ban in the Nation's Capital 
would permit persons who want or need a loaded handgun to own 
one for his or her protection of person, property, or family. I 
am of the opinion that if law-abiding citizens could own loaded 
handguns, it would create a deterrent because thugs would know 
that some of us have a handgun, but not which ones.
    It is time to face reality. The District's handgun ban is 
not working. It has not worked for a long, long time. What it 
is doing is giving more control and power to the thugs, and 
making law-abiding citizens more vulnerable and fearful. The 
ban has allowed thugs more reason to prey on law-abiding 
citizens because they are not armed. Thugs are using handguns 
on innocent law-abiding citizens and on each other. I know many 
criminals and some of them have told me that they like easy 
prey; that is, seniors, women, and frightened people. Sure, the 
victim can arm themselves with baseball bats, knives, and mace, 
but they are no match to a person with a handgun.
    I have seen this city go from good to bad to hell. I am 
fully aware of the acceleration of handgun fatalities, which 
has occurred since the handgun ban went into effect. My oldest 
brother, who owned a handgun, was shot down in the streets in 
1978. It so happened, that day he did not have his with him. I 
believe this triggered my younger brother to shoot someone to 
death in 1980.
    The crying mothers and tearful family members of gunshot 
victims have every right to cry and be angry. My heartfelt 
sympathy goes out to all of them, including my mother. However, 
this is not an emotional, subjective issue. It is a 
Constitutional right that should be granted to all Americans, 
including the citizens of the District of Columbia. I want my 
rights honored, so who would cry for me?
    I, along with the residents of the District, am being 
denied the right of self-protection because we are being denied 
the right to bear arms. I feel that we are being victimized 
twice--once by the strict handgun ban, and second by the 
handgun-toting thugs. For those of you who live where handguns 
are legal, how many shootouts have there been? Is crime high or 
low? Are crimes being committed by legal or illegal handguns?
    Reflecting back to pre-handgun days, there was not a 
handgun in every household. Therefore, when the handgun ban is 
repealed, everyone is not going to rush out to purchase a 
handgun. However, we should have that option; to bear arms or 
not to bear arms would become the question. At that time a 
person can make a conscious decision to bear arms or not to 
bear arms, whichever best fits their circumstances. Those who 
do not want to own a handgun should not stand in the way of 
those who do. If a person has a child or a mentally challenged 
person in the home and feels that it would create havoc, they 
could decide not to own a handgun.
    We can compare other situations with owning a handgun. When 
a person fears height, that person would avoid high places. A 
person who has a fear of automobiles more than likely would 
choose not to own an automobile. The government has not banned 
automobiles because someone has a fear of them. Nor does the 
government ban automobiles, trains, or airplanes because people 
died in them or by them.
    All I am saying is that an individual's personal 
circumstances should not stand in the way of others. As far as 
suicide, people have not stopped committing suicide because 
they do not own a handgun. Suicide being an issue, the 
government needs to ban knives, ropes, medicine, and bridges. 
Even with suicidal attempts with these items, the doctors do 
not ask the government to ban them. They tell their patients 
and their family members to keep the items away from the 
individual.
    Currently, we can own unloaded rifles and shotguns. I 
believe handguns are safer because they are less cumbersome. 
When a rapist or burglar enters my home, I would like to have 
an even playing field by being able to defend myself with a 
loaded handgun, not a bat, knife, or mace. I say loaded because 
an intruder is not going to wait on you to go get a weapon and 
load it.
    It is strange that the same District residents who cannot 
own handguns to protect themselves are the same ones who are 
enlisted in the armed forces protecting our country with 
handguns, rifles, and other artillery and munitions.
    Once the ban is repealed, in order to get a license 
approved to own a handgun, I believe a thorough criminal 
background check, a physical and mental exam should be done 
upon submission of an application for a license, and before the 
person purchases a handgun. The persons licensed to own a gun 
must have proof that they have successfully completed a 
firearms training course. There would be one handgun per 
household.
    Once approved to own a handgun, I believe that the handgun 
should be examined periodically by the police or another 
authorized entity, at the expense of the handgun owner, to see 
that the handgun is still operable, if it has been fired, and 
that it is still in possession of the legal owner.
    If there is a felon or ex-felon in the household, or if a 
felon plans to return to the household, everyone in the house 
would become ineligible to submit an application. Some 
misdemeanors should be denied as well; such as, drunkards and 
drug addicts. The applicant must be a citizen of the United 
States, and there should be a specified period of time that the 
applicant lived in the District prior to the application for 
the license.
    Another reason the residents of the District should be able 
to own handguns to defend themselves is because of a 1981 court 
ruling in the Carolyn B. Warren case, which is attached to my 
testimony. It was declared that the police do not have to 
protect individuals, only the public at large. It was stated 
that the police owe an individual nothing, thereby not liable 
for injury occurring due to an officer's neglect or refusal to 
assist a victim of a crime. If you may have noticed, very 
seldom is a police officer found guilty in court when liable or 
negligent charges are filed against them.
    I believe the right to bear arms is a Constitutional issue, 
which Congress does play a role and has a responsibility to 
ensure this right to the residents of the District. Once 
Congress repeals the ban, the City Council at that time should 
introduce laws accordingly. I believe the application to own a 
handgun should be stringent. I believe that Congress' decision 
to repeal the handgun ban in the District should not be guided 
by emotions and subjectivity, but by intellect and objectivity.
    As to Home Rule, our Representative has already weakened 
that when she approved expanding the Capitol Hill Police 
Department's patrol area. I believe Judge Reggie Walton made an 
incorrect decision when he ruled on our case to bear arms in 
the District, just as the judge did when she ruled on baby 
Briana returning to her abusive family. Now Briana is dead. I 
believe that denying the right to bear arms is denying a right 
under the Constitution.
    [The prepared statement of Ms. Seegars follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.056
    
    [GRAPHIC] [TIFF OMITTED] T2473.057
    
    [GRAPHIC] [TIFF OMITTED] T2473.058
    
    [GRAPHIC] [TIFF OMITTED] T2473.059
    
    [GRAPHIC] [TIFF OMITTED] T2473.060
    
    [GRAPHIC] [TIFF OMITTED] T2473.061
    
    [GRAPHIC] [TIFF OMITTED] T2473.062
    
    [GRAPHIC] [TIFF OMITTED] T2473.063
    
    [GRAPHIC] [TIFF OMITTED] T2473.064
    
    [GRAPHIC] [TIFF OMITTED] T2473.065
    
    [GRAPHIC] [TIFF OMITTED] T2473.066
    
    [GRAPHIC] [TIFF OMITTED] T2473.067
    
    [GRAPHIC] [TIFF OMITTED] T2473.068
    
    [GRAPHIC] [TIFF OMITTED] T2473.069
    
    [GRAPHIC] [TIFF OMITTED] T2473.070
    
    Chairman Davis. Thank you very much.
    Mr. Parker, thank you for being with us.

                   STATEMENT OF TYRONE PARKER

    Mr. Parker. First of all, let me thank you for your 
continued consideration and regard to the citizens of the 
District of Columbia, and for this particular hearing. Ms. 
Norton, I continue to support and be behind your outstanding 
work because I know beyond a doubt you have always been for the 
least and the less and those who do not have a voice. Ms. 
Watson, I heard you say that you are from the place that 
started gangs, so I know that you can sympathize and understand 
the testimony that we, the citizens, come forth with.
    I am the executive director of the Alliance of Concerned 
Men, a 501(c)(3), that offers two to three different 
perspectives in regard to my presentation today. The Alliance 
of Concerned Men is an organization that basically was composed 
of previously incarcerated men that understood the conditions 
of our community and wanted to step forward and make a 
difference. To this point, the last 13 years we have been 
involved with working with the gangs, working with the crews, 
working with returning prisoners in the whole compound in an 
attempt to get them back on the right track. So we understand 
beyond a question of doubt what the impact of this particular 
law would be in regards to repealing the ban pertaining to guns 
in our community.
    We have already begun to make a significant change in 
regards to public safety. In the public housing areas that we 
primarily work with, we have been able to negotiate seven peace 
treaties in the District of Columbia in the last 8 years and 
have not had one single retaliation, simply because they have 
seen the opportunity to turn their lives around and not 
increase the prison population which a number of our men are 
basically going into now.
    I think that this is one of the greatest challenges that we 
are confronted with--the massive number of prisoners that are 
basically returning from the prison, but as well as are in the 
prisons today. It has destabilized our family structure and our 
community structure. Therefore, these individuals do not have 
anything to be able to model after or anything to be able to 
margin themselves after.
    So they tend to look at the one single thing that is so 
blatant today in our community, unlike the times of our days, 
which I consider, as we say, the ``baby boomers.'' We look at 
the echo generation that does not have the components in place, 
so when it comes time for them to settle an argument, they tend 
to do the next best thing, to go for a gun. A gun has been the 
common denominator.
    But now we are beginning to see changes in our particular 
communities. We are not hearing about the drive-by shootings 
every morning that we are accustomed to hearing about. We are 
no longer hearing about gang turf wars over drugs as we have 
been hearing. I know when their lives are concerned, men began 
to go into some of these communities and the topic of the 
conversation they heard was who got shot, what was the 
magnitude of the gun, how fast can you buy one, and they could 
respond on a dime by getting as many guns as they wanted.
    Now, as we see the momentum of what is occurring in regards 
to the initiative that is in place and other things that are 
happening, we are beginning to hear the texture of the 
conversation change. We are beginning to hear the kids talk 
about baseball games and the opportunity to go to school. We 
are beginning to see the public elements of human fear no 
longer in these communities. People are beginning to live as 
they should live and not be just simply because they do not 
have the economical dollars to be able to leave and live in 
other places, but having a high quality of life. We are 
beginning to see a movement take place where the quality of 
life is beginning to surface from those individuals who at one 
point in time considered that they had no chance.
    For us to take a step back and lose the momentum of 
victory, in which we are current in a number of these 
particular places where most folks dare not go, it would be a 
sin and a shame. The information that I have heard today has 
saddened my heart and just basically made me feel so bad, 
because it talked about outstanding law enforcement agencies, 
and it talked about people that were doing their very best to 
make the quality of life what it is. But it is one thing, as 
they often say, the road to hell is paved with a lot of good 
intentions. And even while some of the intentions may be good, 
the outcome will not be.
    I speak also from the perspective of being a previously 
incarcerated person, having done time for armed robbery in the 
District of Columbia some 26 years ago. I understand the impact 
of who I was and who I had to become. This last year, I was 
given the award of Washingtonian of the Year because of the 
work and outstanding support that our type of organizations 
have been able to do. But as we see the men and the women 
return back to the District of Columbia with nothing in place 
to the point of employment, shelter, health care, they will 
have very little opportunities to be able to work themselves 
back, especially as things are today.
    So I would truly hate to see this gun ban lifted, where 
each and every household basically lives in fear because of the 
environment that has been created to have the gun in the house. 
I tell you, we would create bands of individuals who see no 
opportunities and, instead of stealing cars, they would become 
house-breakers and the new commodity would be the guns that 
they would bring out of these particular places, the guns that 
they believe would give them another opportunity to be able to 
rid themselves of the problems that they have.
    No, we cannot afford to step back 1 inch and relinquish the 
momentum that we have accomplished. I know it is not perfect, 
but it is quite a way from how it once was. And victory is 
truly in sight for the storm has passed. And for that I say, 
``Thank you, Jesus,'' because I do not have to attend the 
number of funerals or see the mothers cry as they have cried. I 
do not have to see the communities in the conditions that they 
have been. We are there each and every day.
    I thank you for your time, I thank you for your spirit, but 
I pray that this bill goes nowhere.
    [The prepared statement of Mr. Parker follows:]

    [GRAPHIC] [TIFF OMITTED] T2473.071
    
    [GRAPHIC] [TIFF OMITTED] T2473.072
    
    Chairman Davis. Thank you very much.
    Ms. Lowe, last but not least, we appreciate your patience. 
Thanks for being with us.

                   STATEMENT OF FRANCINE LOWE

    Ms. Lowe. Good afternoon, Mr. Davis, Ms. Eleanor Holmes 
Norton, Ms. Watson. My name is Francine Lowe. I am an employee 
of the Department of Public Works Solid Waste Management 
Division. I am proud to be a native Washingtonian. I have seven 
kids, four girls and three boys, ranging in age from 4 years 
old to 20 years old. They were also born in the District of 
Columbia.
    I am asking the Congress to leave our gun laws alone in the 
name of my daughter, Myesha. Myesha was an innocent bystander 
who was shot and killed July 24, 2004. I testify here today 
because that is the least I can do. But I come in great sadness 
because my family and I have not gotten over, and will never 
get over, the death of Myesha by gunfire. Yet Congress keeps 
trying to repeal our gun safety laws.
    Does Congress think that repealing our gun laws will save 
children like Myesha? Many mothers like myself who are raising 
their children in tough neighborhoods in D.C. know otherwise. 
If Congress makes it easier for residents to have guns, there 
will be more mothers like myself and more children like Myesha.
    We had much hope for my wonderful daughter, Myesha. She was 
what mothers want daughters to be, pretty, bright, and polite. 
Myesha was an honor roll student and had graduated from Hine 
Junior High School. Her school this last fall was going to be 
Dunbar. She never made it. Myesha and her sister Rasheida were 
in the Trinity College Upward Bound program. She was shot and 
killed on a Saturday, and that Monday Trinity College was going 
to take them up to Niagara Falls to tour some colleges.
    Myesha had permission from my mother to go to Checkers to 
get her something to eat on the evening of July 24th. Some kids 
drove by and had words with a passenger in another car. All 
agree that Myesha was not in the dispute and was not the 
intended victim, but Myesha was shot twice, one in the head and 
once in the leg, sitting in a car full of girls. My heart 
started aching then and I do not think it will ever stop. When 
I arrived at the hospital Myesha was dead.
    Anyone with a teenage child knows that a gun in the house 
will almost be impossible to keep from a teenager. There is a 
saying, you can run but you cannot hide. You can hide guns and 
lock them up, but if someone can get to it, a teenager can. I 
know there are people who would think a gun in their home would 
protect them. But anyone who knows our city knows that our guns 
are more likely to be pulled out and used to cause tragedies in 
our homes and streets.
    A gun caused a tremendous tragedy in my family. The last 
thing I would want this city to do is to have more guns, legal 
or illegal, in homes or in the streets. Please, Congress, do 
not pass this legislation to repeal our gun laws.
    [The prepared statement of Ms. Lowe follows:]
    [GRAPHIC] [TIFF OMITTED] T2473.073
    
    Chairman Davis. Thank you very much.
    This has been a very, very interesting hearing. Part of it, 
I think we see the cultural divide in this country in terms of 
how people view guns, people's rights to own them. To me, the 
ultimate question I think is, however you feel about it, who 
should be making the decisions: should they be made locally or 
do they get made nationally?
    Dr. Lott put up some very interesting statistics. Of 
course, I am reminded that statistics can show anything. But is 
there anything that can show statistically how this has reduced 
crime? The interesting thing to me is are there any facts that 
we can show that have shown that preventing guns legally in the 
city has reduced crime? Because according to Dr. Lott's 
statistics, it has actually gone up, and I have seen that used 
before. It is kind of counter-intuitive that it would work that 
way.
    But the committee would be very interested in looking at 
that, and we will ask the police chief as well. A lot of this 
is I guess I would say intuitive in terms of what it would 
mean. But I thought those statistics were interesting at least 
in terms of putting a case together.
    I am not sure how relevant they are because crime is 
dependent on so many different things than just do you own a 
gun or not. You look at when crack cocaine hit the city, the 
crime rate went up, and that did not have anything to do with 
guns. But I would be interested if anybody has any statistics, 
not today, and we will ask the police chief at the same time 
for that and see what he can produce on that.
    Mr. Levy, let me ask you. I have not followed the court 
suit. Where is that at this point? Because ultimately, if it is 
a second amendment question, Congress is not going to decide 
it, it is going to be decided in the courts. I think your point 
is you want to pick the best case you can and take it up the 
ladder and the courts will ultimately decide if cities have the 
right to do that, not just the District of Columbia, but all 
the other cities that have passed these bans on handguns. Is 
that correct?
    Mr. Levy. That is correct. There were two cases involved, 
parallel cases. In the Seegars v. Ashcroft case, the trial 
court Judge Walton dismissed the Seegars case holding that none 
of the plaintiffs has standing to challenge the D.C. handgun 
ban. One of the plaintiffs who owned a shotgun had standing to 
challenge another portion of the D.C. law.
    But Judge Walton found that the second amendment did not 
protect an individual right to keep and bear arms. On appeal, 
the U.S. Court of Appeals for the D.C. Circuit determined that 
none of the plaintiffs has standing in the Seegars case. So 
that case has been resolved and dismissed on June 21st, just 1 
week ago. We do not know whether the Seegars plaintiffs will 
seek to obtain certiorari at the Supreme Court level.
    The parallel case is the one that I spoke about, and that 
is Parker v. District of Columbia. Even though it was filed 4 
months before the Seegars case, it was resolved by the District 
Court later by Judge Sullivan. He found that the Parker 
plaintiffs were not protected because, again like Judge Walton, 
he found that the second amendment did not secure an individual 
right to keep and bear arms. That has been appealed to the D.C. 
Circuit. The D.C. Circuit put that case on hold until the 
Seegars case was resolved. One week ago today the Seegars case 
was resolved and dismissed. And so now the Parker case is front 
and center.
    The Parker plaintiffs, we think, will have standing and so 
the D.C. Circuit will address this case on the Constitutional 
merits. The Parker plaintiffs were told that they would, in 
fact, be prosecuted by the D.C. government at oral argument in 
the trial court. So standing is likely to be conferred and the 
D.C. Circuit is likely to issue a merits-based opinion on the 
second amendment very soon.
    Chairman Davis. Why do you think there has not been more 
litigation like Shelly Parker's suit over restrictive gun laws?
    Mr. Levy. In D.C.?
    Chairman Davis. Everywhere. This is a case of the city's 
right to do it, I guess there are probably some nuances with 
the city, but in any city being able to ban them outright. 
Ultimately, this is a second amendment decision that should not 
be resolved legislatively, it ought to be resolved 
Constitutionally.
    Mr. Levy. I think a couple of points in that regard. One of 
which is that D.C. has the most draconian gun laws in the 
Nation. So one would expect that the suits most likely to 
succeed would be the ones here in D.C.
    A second issue is a complicated legal issue, and that is 
the issue of incorporation. The 14th amendment has incorporated 
a number of the Bill of Rights provisions to apply against the 
States. Prior to the 14th amendment, the Bill of Rights only 
applied against the Federal Government. Most of the Bill of 
Rights provisions have been assessed as to whether or not they 
are incorporated. The verdict is still out on whether the 
second amendment has been incorporated.
    So not only in other States than D.C. would you be faced 
with a merits determination on the second amendment, but you 
would also be faced with the issue of whether the second 
amendment even applies against States. You do not have to 
address that issue in D.C. D.C., not being a State for purposes 
of the 14th amendment, the incorporation issue is a non-issue. 
So you can bring a second amendment challenge in D.C. without 
concern over incorporation problems.
    Chairman Davis. I think we actually heard some very cogent 
arguments from everybody today in terms of whether this works 
or does not work. But I guess where I come down is that is 
ultimately up to the voters of the city to make that decision. 
If you are out in Shenandoah County or out in rural Virginia, 
they are going to make one decision.
    But in cities that are plagued by high crime, the elected 
officials, and this has been pretty uniform, and the elected 
officials in Washington too, you do not find a lot of urban 
Members opposing gun control laws. It seems to be kind of a 
cultural phenomena depending to some extent on where you live.
    But here is my difficulty. Washington, D.C. does not get a 
vote in Congress. We are spending billions of dollars to bring 
democracy to Baghdad, to other parts of the world, and then 
here we do not allow a vote even in the House for the Nation's 
Capital, if you will, which is the Capitol of democracy. And 
when the local officials make decisions we do not give them 
sometimes the kind of respect and rule that we would in other 
city in the United States as well, which kind of compounds it.
    And if you want democracy ultimately to be successful here, 
you have to hold elected officials accountable. That means a 
high crime rate, let the people in the city hold them 
accountable and let them sort that out. Cities are going to 
come to different conclusions the way they deal with that.
    The city has a lot of laws on the books that I am not happy 
about, particularly the cell phone law that they have gotten in 
terms of when you are driving. But my feeling always has been 
that if it does not interfere with the operations of 
government, that you let the people make those decisions and 
that is just kind of the way it is.
    Mr. Levy. May I comment on that, Mr. Chairman?
    Chairman Davis. Sure. Yes, please.
    Mr. Levy. I think the issue of whether or not the District 
has a vote in Congress is quite a separate issue and need not 
impinge upon this issue as to whether or not the District 
government is now violating the second amendment. The very 
nature of a Constitutional republic is----
    Chairman Davis. Correct. That is on a Constitutional basis 
and that is why getting it resolved in the court is different. 
I do not disagree with you on that. But, of course, what we are 
talking about today is a legislative solution and a legislation 
solution that applies just to this city and just to the one 
city in the United States, that happens to be the capital of 
the free world, that does not have it, which makes me, at least 
from my perspective, more reluctant to try to engage in it from 
a legislative position regardless of the merits.
    Mr. Levy. The position of the Federal Government in regard 
to enforcing rights violations against the States was changed 
in 1868 when the 14th amendment was ratified. After 1868 the 
Federal Government had every right to step in and stop the 
States from violating provisions of the U.S. Constitution. That 
is what the civil rights cases were all about.
    Chairman Davis. But we have not stepped in with any other 
cities. This is not the only city with a gun ban. There are 
other cities in the country that have them.
    Mr. Levy. It is the city with the most draconian gun ban in 
the Nation.
    Chairman Davis. I think if you look at some of the suburban 
Illinois cities, they also have it. You could pass I guess a 
conceal and carry law nationally, you could pass I guess a 
national law on that basis. But if you can do it nationally one 
way, you could probably legislate it the other way as well. But 
I understand your argument. But understand, this is just one 
Member's perspective, my reluctance, whatever you might think 
about the merits of this thing, to pass a hurdle here where we 
would impose nationally, 435 Members impose their will on a 
city that has elected officials.
    Now, I understand that within the city there is always some 
controversy on these amendments. And the city would have the 
right, by the way, to change this if the Council wanted to 
change it, and that would be the right of members here who 
advocate gun ownership rights to elect council members and 
Mayors who take an opposite view, if that is what they choose 
to do. We would respect that and I would feel the same way, 
that you kind of respect the ability and the rights of the city 
to make that decision.
    Ms. Seegars, did you want to say something?
    Ms. Seegars. I hear everything you are saying, but D.C. is 
unlike anyplace else in the country or in the world. We have a 
representative there who is basically a lobbyist for us. When 
she gets a vote, then you can say all those things about D.C. 
and other States and it will apply to us. Right now, with no 
vote, that does not apply to us. And we do plan to take the 
case to the Supreme Court.
    Chairman Davis. I agree. But she is an effective lobbyist.
    Ms. Seegars. She does fairly well. No, she is good.
    Chairman Davis. Even when she goes down, she goes down 
fighting. I can testify to that.
    Ms. Seegars. She sure does.
    Chairman Davis. I have a couple other questions, if I could 
get to them before I hand it over to Ms. Norton.
    Ms. Seegars, let me just ask you, do you think that 
repealing the handgun ban would encourage D.C. residents to 
take the law into their own hands? Or do you think it would 
just be used by law-abiding citizens to defend themselves?
    Ms. Seegars. I believe it will stop the criminals from 
attacking us. I believe that we, the law-abiding citizens, as I 
am, I do not think we will just run out in the street and start 
shooting people. I think we will use it in our homes. And yes, 
we do plan to take this case to the Supreme Court.
    If you look at other cities in other States, they do not 
run out on the street and shoot people for no reason. So I do 
not think we would be so stupid as to go out and start shooting 
people.
    Chairman Davis. Mr. Lott, let me ask, you had your stats up 
there, murders, rapes, and robberies have all declined the last 
couple of years.
    Mr. Lott. Correct.
    Chairman Davis. The gun ban of course predated that. Do you 
think these recent numbers could be indicative of a long-term 
decline in the crime rate in the city?
    Mr. Lott. We have been seeing a drop nationally in violent 
crime. There have been increases in arrest and conviction 
rates, and I think those are important in helping to explain 
it.
    Chairman Davis. Do you think the gun ban effectively keeps 
dangerous weapons out of the hands of criminals?
    Mr. Lott. I think it keeps the guns out of the hands of 
some criminals. But I think it has a relatively bigger effect 
in terms of disarming law-abiding citizens relative to 
criminals. And the net effect of that is to actually lower the 
cost for the criminals committing crimes.
    Chairman Davis. Is it your opinion, and I guess it would be 
Mr. Levy's opinion, that the right to bear arms is one that 
belongs to individuals, not just members of the militia?
    Mr. Lott. I am a statistician. I will leave the law 
questions to others.
    Chairman Davis. All right. You are a numbers guy.
    Would you agree with that, Mr. Levy?
    Mr. Levy. Well it is not just Mr. Levy's opinion. I think 
it is important to note that it is the opinion of most legal 
scholars now. Here is Alan Dershowitz, former ACLU board 
member, who says he hates guns and he wants to see the second 
amendment repealed. But he condemns ``foolish liberals who are 
trying to read the second amendment out of the Constitution by 
claiming it is not an individual right. They are courting 
disaster by encouraging others to use the same means to 
eliminate portions of the Constitution that they don't like.''
    Harvard's Laurence Tribe, another liberal icon, who in his 
latest treatise on Constitutional law, joined by Yale's 
professor Akhil Amar, writing that ``reasonable regulation in 
the interest of public safety'' is permissible but that there 
is an indisputable individual right to keep and bear arms. I 
think Tribe and Amar, and Dershowitz, and I can name dozens and 
dozens of other respected legal scholars, they agree with 
Attorney General Ashcroft and they agree with the Fifth Circuit 
Court of Appeals in the case of U.S. v. Emerson that there is 
an individual right, not a collective right.
    The only thing they disagree on is what constitutes 
reasonable regulation; that is, where do you draw the line. One 
place we know we are not do draw the line, and that is where 
D.C. has drawn it, where there is an absolute ban on handguns, 
even in your own home for your own family's defense.
    Chairman Davis. OK. But the courts have not ruled on that.
    Mr. Levy. The appellate court has not ruled. It is pending 
now and we hope for a ruling sometime soon.
    Chairman Davis. And that decision was not successful at the 
lower court, correct?
    Mr. Levy. The lower court ruled in favor of a collective 
right, not an individual right. The appellate court of course 
reviews this de novo; that is, this is strictly a matter of 
law, it is not fact-dependent. The appellate court will look at 
this from scratch.
    Chairman Davis. Sure. I think this works its way up.
    Mr. Peck, what would be the economic impact on tourism if 
the gun ban is repealed? Do you see any economic impact at this 
point? Is it a perception issue, or is it a real issue?
    Mr. Peck. It is mostly a perception issue. As I said in my 
testimony, I think our fear, were this law to pass, would be 
just to highlight again for people what is an unfair 
characterization of the city as an unsafe place to be. We 
market this region around the country and around the world and 
we are still fighting perceptions from 20 years ago about 
crime.
    The fact is, on an economic basis, aside from, and I say 
that advisedly because it should never be aside from, the 
personal tragedies that happen with gun play in this city, 
there is an impact on even the areas of the city that we can 
prove statistically are safe because people do not make those 
kinds of distinctions.
    And I will say this, it is not just an impact on the city, 
it is an impact on the whole region. When the city had a 
reputation for being unsafe, not being well-governed, not 
handling its infrastructure well, it had an impact on the 
economy of the entire region.
    Chairman Davis. Thank you very much. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I want to particularly thank all of today's witnesses for 
staying so long. You see the way the Congress operates. There 
is nothing that any of us can do about the fact that votes come 
and people have to go and do them, or at least most people do. 
I want to thank all of you. All of you have presented important 
testimony for us to hear. I have only a few questions for each 
of you.
    Ms. Lowe, I cannot bear to ask you any questions. I just 
think we have to let your testimony stand for itself. It would 
break my heart to ask you any questions. I can only thank you 
for having the courage to come here and speak out.
    Chairman Davis. Let me just associate myself with those 
remarks, and we appreciate that very much.
    Ms. Norton. Reverend Edmonds, just let me compliment the 
work of the Washington Interfaith Network. It is the most 
extraordinary community organization in our town, where the 
ministers from around this region, from congregations White and 
Black and Hispanic, work together on the toughest issues--
housing, after school, in the most extraordinary set of 
organizations that really force elected officials to come to 
bear with issues. It is quite an extraordinary organization 
that I tremendously admire.
    You are pastor of a church near Dunbar High School where I 
went to school, Myesha was on her way. This is in a hard core 
part of the District of Columbia, hard core.
    Pastor Edmonds. Yes.
    Ms. Norton. Where the District had to go in with lots of 
resources to clear out folks with guns. You also are a member 
of ministerial organizations in the District. Where do 
ministers of the gospel, ministers in our city stand on the gun 
laws in our city, so far as you know? Do they support the gun 
laws, or would they support repeal?
    Pastor Edmonds. From my perspective and position, I do not 
know of any minister who would want to see the gun laws in the 
District repealed. To us, that is an appeal to the lower 
instincts in man. And when I hear the conversation and the 
argument to repeal the gun laws, to me as a minister, it is an 
attraction to the base elements in us that seek to resolve 
issues by violence, retribution.
    I could go to a young person's funeral each week, I could 
conduct a funeral each week due to gunfire, due to some type of 
weapon violence. And so, in summary, I do not know of any 
pastor worth his or her salt that wants to see an increase in 
the accessibility of guns in the District.
    Ms. Norton. Thank you. I regard you as an expert witness on 
that, Reverend Edmonds.
    Mr. Levy, I understand and appreciate that at least you 
want to step aside until the Parker case is resolved. You and 
the NRA have a beef on your competing lawsuits going in various 
ways, all on the second amendment. You opine that our laws are, 
``indisputably unConstitutional.'' Well, fortunately we have 
courts for that. I guess I have to repair you to the courts. 
You have argued the case here and your lawyers will argue it 
there.
    I only note for the record that, for whatever reasons, you 
and Ms. Seegars have lost below. And to the extent that you 
want to argue, and here you are speaking also, sir, to a 
Constitutional lawyer, to the extent that you want to argue 
that you did not lose on the merits but on some other matter, 
such as standing, may I say to you that it is the obligation of 
courts to avoid reaching the Constitutional issue if they can 
sidestep it by going to another issue.
    So the only answer we can get for you is the answer you are 
seeking in the proper forum. Having lost below, you are now at 
the next court. You will go to the Supreme Court. Good luck. 
There is very definitive language at the Supreme Court level 
about the second amendment.
    I want to therefore move on to Mr. Lott, who tells us that 
a woman even would be better when attacked if she had a gun in 
her hand, safest course of action. Let me just ask you, Mr. 
Lott, do you oppose the assault weapon ban that Congress has 
not reenacted? Would you oppose that?
    And I am sure you were in the room when Mr. Waxman held up 
the gun, life-size, that could be sold in the District of 
Columbia now that there is no assault weapon ban and presumably 
therefore could be legally owned. Would you therefore sanction 
the ownership of assault weapons in the District of Columbia 
today?
    Mr. Lott. Assault weapons is a made-up term.
    Ms. Norton. AK-47s, M-16s. You name it what you want to 
call it that sounds better. Would you in fact sanction the 
ownership of such guns as, call it what you want to, Mr. Waxman 
held up in the District of Columbia in homes owned by law-
abiding citizens in the District of Columbia?
    Mr. Lott. When you use the term AK-47, that is not----
    Ms. Norton. Answer the question outright, Mr. Lott, and 
call it what you want to.
    Mr. Lott. OK. I do think the assault weapons ban made no 
sense. I think it had no beneficial impact in terms of crime. I 
think, if anything, it just imposed costs on some law-abiding 
citizens. But I know of no statistical study that has been 
done, nothing that has been published in any academic journal 
that shows there has been any benefit in terms of reduction in 
crime with the assault weapons ban.
    Ms. Norton. I just want to be clear. All I want to do is to 
be clear, as you are aware, this is an area, a high terrorist 
target, I just wanted to have it on the record.
    Mr. Lott. Sure.
    Ms. Norton. And you have been honest and you have been 
clear. I just want to go now to your own statistics where you 
compare, first of all, States. I am really wondering about your 
statistics and causation.
    For example, you compare the District of Columbia to 
Virginia and Maryland. Not only are these huge jurisdictions, 
Maryland has one large city like the District of Columbia. One 
might want to compare the District of Columbia to Baltimore. 
Virginia has maybe one, that would be Richmond, like the 
District of Columbia. Meanwhile, Maryland has jurisdictions 
like Montgomery County, one of the richest counties in the 
United States, and Virginia has Fairfax and other of the 
richest counties in the United States.
    Chairman Davis. Wealthier than Montgomery, for the record. 
[Laughter.]
    Ms. Norton. Therefore, I am questioning your statistics. 
Did you control, because I could see nothing in the text of 
your testimony, that controlled for concentrated poverty? In as 
much as the data shows that Census tracts with high poverty are 
where the crime rose in the District of Columbia, from 36 to 44 
tracts. That is to say, as the tracts of poverty increased, 
this figure from 1976 also increased.
    I am a native Washingtonian. When I was born and raised in 
the District of Columbia it was a largely middle class city, 
Black and White. Like every other city, the middle class moved 
out, except for some of us. My own sister, who also went to 
Dunbar High School with me, raised her sons in Montgomery 
County. Did your study, which compared us to two of the richest 
States that surround us, control for concentration of poverty 
when you compared us to Maryland and Virginia?
    Mr. Lott. I have two books, one published by the University 
of Chicago Press, that are the largest studies that have been 
done on crime. I have data in those that look at the 10,000 
largest cities in the United States as well as all the counties 
in the United States over a 24 year period of time, where I 
literally control for thousands of different factors. I have 
detailed information----
    Ms. Norton. What I am asking is, look, you cannot put 
testimony before us and----
    Mr. Lott. Right. All I tried to do----
    Ms. Norton. If you want me to quote from your testimony, I 
am going to quote from your testimony.
    Mr. Lott. Sure.
    Chairman Davis. Let him answer.
    Ms. Norton. But he is now going into his books, Mr. 
Chairman. My question is----
    Mr. Lott. All I tried to do in these----
    Ms. Norton. Much larger than the changes in neighboring 
Maryland and Virginia. You come in here with it, I have a right 
to cross examine you on it.
    Mr. Lott. Right. All I tried to do for those things is just 
in a very simple way just show how the crime rate in D.C. has 
been changing, mainly just to show that it has not fallen. It 
has gone up, if anything, in these simple things that you can 
do there.
    Now I have books where I try to control for lots of factors 
in regression analysis over a long period of time looking at 
all the jurisdictions in the United States, control for 
poverty, different measures of income, multiple demographic 
type measures that are there. And what you find is that the 
stricter the gun control laws that you have, you see increases 
in violent crime.
    Ms. Norton. Mr. Lott, I asked you a simple question. You 
answered my first question. I asked you that in offering us 
this sentence, ``These drops and subsequent increases were much 
larger [here] than any changes in neighboring Maryland and 
Virginia,'' I simply asked you whether you controlled for 
poverty?
    Mr. Lott. No, I do not. But I am saying that I have done 
that in other places where I have gone--I just did not want to 
go into regression analysis----
    Ms. Norton. I would just ask you to do it here as well. I 
would just appreciate it.
    Finally, I must say to you, Mr. Lott, because I think it 
needs to go on the record, I am going to read from a Washington 
Post article, since, as you have said, you are only a 
statistician, I am going to read from it because I think it is 
relevant in evaluating your testimony. ``Lott's greatest fan 
and defender online, Mary Rosh, a former student of Lott's, has 
jousted online for 3 years against Lott's harshest critics who 
have bitterly attacked his research and data which he says show 
gun ownership deters crime. Rosh said Lott taught her at the 
University of Pennsylvania in the early 1990's and was `the 
best professor that I ever had, would try to take any class he 
taught'.''
    I am not even going to read all of this. He posted an 
effusive review of his books on the Amazon.com site, giving it 
the highest five star rating. It was signed Mary Rosh. Mary 
Rosh was not real. She was actually John R. Lott, Jr. That was 
you.
    Mr. Lott. There are multiple mistakes in that piece.
    Ms. Norton. Mistakes? It was an intentional--it is 
something that an academic, someone with a Ph.D. should have 
known better than to do.
    Chairman Davis. Well, let him explain it. Do you want to 
explain it or say anything about it?
    Mr. Lott. Yes. I have to go through things. The reviews, 
the books that you are talking about was one review. The 
account was my children's account. My four sons' names are 
Maxim, Ryan, Roger, and Shirlin. And you take the first two 
letters of those and my wife set up an e-mail account. And the 
book review was done by my son. It was not done by me. He had 
shown me the review but it was not anything that he had done 
that was--you know, it was just a son writing a review of his 
dad's book that was posted there and he just used the e-mail 
address that was there because that was the one that my wife 
had set up for him to go and use.
    With regard to the other things, I did use that e-mail 
address for postings in Internet chat rooms. But the things 
that were there that were done were based upon some facts. So I 
was just referring to a graduate class that I had taught where 
I had gotten perfect evaluations in the class and what some 
people had said.
    So some of the things are taken out of context there, and 
other things are just wrong as to ascribing who was writing 
what, when.
    Ms. Norton. Well Mary Rosh did not exist. I think we ought 
to leave it there because apparently you said, ``We should not 
have done it.''
    Let me go on to Ms. Seegars. There are only two more 
witnesses. I want to be able to ask everybody who is left a 
question. Ms. Seegars is a good friend in the prayer circle. 
You cannot have 100 percent of anybody.
    Actually, Sandra Seegars is a wonderful community activist, 
a good friend who does a lot of good work in the District of 
Columbia for the people of the District of Columbia in the 
toughest ward. She deserves to be heard, even when she is as 
wrong as she is today, because she has earned the right to come 
forward, and when she wants to challenge us she has gone into 
court.
    I have to ask, Ms. Seegars, were you born in the District 
of Columbia?
    Ms. Seegars. I was born in Alexandria but I have lived in 
D.C. since I was 3.
    Ms. Norton. Do you believe in Home Rule for the District of 
Columbia?
    Ms. Seegars. Sometimes.
    Ms. Norton. Oh. Would you explain yourself?
    Ms. Seegars. I believe in Home Rule when we have a 
Representative that will stick to Federal levels instead of 
butting in and out of local levels when they feel it necessary. 
So, yes and no.
    Ms. Norton. Well, this is a Federal level, is it not, 
because the Congress of the United States is trying to pass 
this law.
    Ms. Seegars. But when you came over to ward 8, about 30 
people were there when the lady was called ``White trash,'' you 
were all up in that and it was very local. And so to me, you 
cannot have it both ways. So my answer is, yes and no.
    Ms. Norton. First of all, Ms. Seegars, if you want to 
change the subject, I want to proudly say that if anybody wants 
to use a racial epithet against anyone Black or White, Jew or 
gentile, I will rise up and criticize that person. But let us 
get to what the Congress has control of. You say you are for 
Home Rule. Do you think the Congress of the United States, you 
are going to court now, that is fair game, but do you think the 
Congress of the United States should repeal this or any other 
law of the District of Columbia?
    Ms. Seegars. By us not being a State, and by us only having 
the top official as a Mayor, yes.
    Ms. Norton. So you then believe that democracy should not 
be the rule here? That the 600,000 people here are not entitled 
to the same democracy that they would be entitled to if they 
continued to live in Alexandria, where you were born?
    Ms. Seegars. We are not entitled to a whole bunch of things 
in D.C. That is why I need to move back to Alexandria. There 
are a lot of things we are not entitled to. We do not have a 
Governor, we do not have Senators, we do not have any of that. 
So I believe it is a Constitutional matter and I believe that 
Federal is in charge of the Constitution. I think the elected 
officials, I voted for none of them, are not representing me 
properly.
    Ms. Norton. At least you got to vote for them and you can 
take them out. You cannot vote for anybody sitting up here 
except me, and I cannot vote.
    Chairman Davis. If she moves out to Virginia, she might be 
able to.
    Ms. Seegars. I will say that I have gone to Mr. Davis and 
got some successful results.
    Ms. Norton. Well, we are very pleased for that. Let us see 
if you will get some successful results from the Congress of 
the United States when they decide that they want to do 
whatever they want to do for the District of Columbia.
    Let me move on to this bill. I notice in your testimony 
that you are for a whole set of things that are not in this 
bill--criminal background check, completion of a firearms 
training course, even periodic review by the police department 
or some other authorized entity into seeing whether or not the 
handgun owner has fired his weapon or anything. In as much as 
none of that is in the bill pending before us, I take it that 
you oppose the bill pending before us.
    Ms. Seegars. No. That is when the local officials can step 
in and write laws accordingly. Once it is repealed, then the 
local officials can write that.
    Ms. Norton. If you want it repealed, why do you not just 
get us to write it, since you want us to repeal it?
    Ms. Seegars. Can you? Will you?
    Ms. Norton. Of course. We can rewrite everything in the 
District of Columbia law.
    Ms. Seegars. I understand what you are saying, Ms. Norton. 
I understand full well what you are saying. But sometimes we 
have to step over something to get to what we want. Right now, 
I am willing to step over the elected officials in the city to 
get this, because I want to be able to protect myself and my 
home. I really do. I would like to have a handgun, a loaded 
handgun so if somebody comes up to my house in Southeast 
Washington I can shoot them. That is what I do believe.
    Ms. Norton. I understand, Ms. Seegars. Let me just say, 
before I go on to Mr. Peck, that one of the reasons that I have 
credibility when I go on the floor to defend Home Rule is I 
have to tell Members of Congress that whether or not I would 
agree with a law of the District of Columbia, then I give them 
the one I most disagree with. And that law is one, by the way, 
our ministers, I think, were instrumental in defeating, and 
that is I would most disagree if the District Council decided 
to impose the death penalty in the District of Columbia.
    Ms. Seegars. I am for that.
    Ms. Norton. Excuse me. I have conscientious objections and 
I have other objections based on the efficacy of the death 
penalty.
    But let me just say this for the record in light of your 
selective view of Home Rule, when you are for it and when you 
are not. If the Council passes a law imposing the death penalty 
on the District of Columbia, as a matter of principle I would 
feel that I would have to as ardently argue that Congress could 
not step in as I do on bills that I favor. I just want to tell 
you, I have you in a prayer circle, so I want you to just think 
about it, whether one can selectively be for Home Rule.
    Mr. Peck, finally, Board of Trade here is a Regional Board 
of Trade. Let me ask you this, what does the region have to do 
with it? Why would the Regional Board of Trade be against 
repeal of our gun laws?
    Mr. Peck. I can give you two reasons. One is, as I have 
tried to express, the economic health of this region depends, 
as we have learned and can show over some business cycles now, 
on the economic and social health of the District of Columbia. 
So we have a concern, we in fact have a specific objective in 
our policy agenda of supporting measures that would fight 
crime.
    Specifically in that, we decided that since we are not 
great experts at this, we support police efforts. Not 
uncritically. We have gone to Chief Ramsey and suggested more 
vigorous patrolling, which he has done, but we generally 
support what the police chiefs think is best in their 
jurisdictions.
    We believe, as I have said, that this perception out there 
that the District is an unsafe place will hurt the District 
first, but, by definition, the entire region. It is like 
pebbles in a pond and it spreads out. Or like I say sometimes, 
we have a very vibrant economy also in Fairfax County in Reston 
and Tyson's Corner, but when you go around to the rest of the 
country or go around the world and say you want people to do 
business in the Washington area, you are talking about the 
Washington area.
    Second, we believe fundamentally, and this is a change I 
have to tell you from where the Board of Trade was 30 years 
ago, that Home Rule is a good thing. And if you believe in Home 
Rule, and what I am talking about now is a locally elected body 
that gets to make the laws and decide what happens with, for 
example, the money that is raised on business people in the 
District of Columbia and then spent in the District of 
Columbia, that we are prepared to rise and fall, win and lose 
on locally elected officials for our laws.
    Ms. Norton. I thank you for that, Mr. Peck. I note for the 
record as well that our tourist industry is a regional cash cow 
for the neighboring regional counties as well.
    The final question for Mr. Parker.
    Mr. Peck. May I say one more thing. I want to explain why I 
took umbrage before at what people were saying about the 
District of Columbia. It is this, No. 1, we are benefited by 
the presence of the Federal Government in many ways. We are not 
adequately compensated for all the services that we give, but 
we are benefited in all kinds of things--free museums, 40 
percent of the regional economic product comes one way or 
another out of the Federal Government. So I say that.
    But you know what, no other city is subject to scrutiny by 
the national legislature for what is going on inside its 
jurisdiction or we would have an awful lot of cities and 
districts all over here who we could up at a table with 
witnesses and question their policies, question what they are 
doing. I would love to ask some other cities why their 
economies are not doing as well as ours. But we do not get to 
do that.
    Ms. Norton. Thank you, Mr. Peck. My goodness, those are 
important words.
    Final question to Mr. Parker. Mr. Parker, everybody I think 
had to listen very closely to what you had to say. There are 
different ways to bring credibilities to the table, but you 
bring it in the hardest, perhaps most important way because you 
bring it from all sides--you now work with ex-offenders, you 
yourself are an ex-offender, used a gun. I am not sure you 
testified about this, but I know that you lost a son to 
gunfire.
    Mr. Parker. Absolutely.
    Ms. Norton. Therefore, I said I regarded Pastor Edmonds as 
an expert witness on where the pastors of this city would be on 
gun repeal, I certainly regard you as an expert witness on the 
question I am about to ask you. This bill would assume that a 
person who could get a gun would have to be himself a person 
who did not have the kind of record you had. You could not get 
a gun probably under this bill. So it would have to be a law-
abiding person; that is to say a person without a conviction 
record.
    I want to ask you what harm it would do in light of the ex-
offenders with whom you work? I am assuming a scenario where an 
ex-offender comes back home, and we know the thousands that are 
coming back now, I am assuming that he does not have a place to 
live, I am assuming that he certainly does not have a job, 
because we are making jobs very well but we also have high 
unemployment with people who do not have any record.
    Mr. Parker. Absolutely.
    Ms. Norton. I am assuming he is going to stay with 
somebody. I am assuming he is going to stay with his mother or 
his girlfriend or his uncle. And now assume that law-abiding 
person probably living in a part of the city where there is a 
fair amount of crime, because those might be the people most 
likely to have guns, I am assuming for purposes of this 
hypothetical situation that this law-abiding person has a gun 
in the home. I would like for you to describe what you think 
would happen as far as the ex-offenders coming back to the city 
and finding themselves in a home now with a gun.
    Mr. Parker. Well, there is an old saying that they often 
utilize with that population, and it goes like, ``I prefer to 
be in jail broke than on the street with no money.'' And when 
you look at it from the perspective that a large number of the 
returning brothers and sisters are looking at in comparison to 
being able to obtain employment, to a degree of actually having 
a dream that they would like to manifest but not having the 
necessary means to, they would primarily take almost any means 
necessary to be able to obtain some of the things that they 
wish to obtain.
    And this particular population here I think is actually 
confronted with a number of serious challenges. As you made 
mention in regards to employment, how competitive that actually 
is, even with individuals that do not have a prison record. 
When you look at the environment today pertaining to these men 
and women that are returning home, I have heard numbers of 
500,000 and 600,000 people, basically the same equivalency of 
the city of the District of Columbia, that are coming back and 
just do not have the means to actually make a transformation 
into the everyday way of life. It is a challenge within itself.
    I do not think that the environment that we are talking 
about creating will actually be anything for the good in 
regards to working with this particular population, or for the 
city as a whole. I think that we are confronting with some very 
serious challenges. I heard my good friend, Mr. Peck, who 
primarily deals with the business aspects of the city, I think 
if we can begin to get the business community to the table in 
the sense of employment for this particular population and look 
at it from the perspective of redemption in the highest sense, 
in which it may not occur.
    But to answer your question, long story short, I think from 
that perspective that this would be a very serious challenge 
for us.
    Ms. Norton. Thank you very much, Mr. Parker.
    May I say, Mr. Chairman, I appreciate the way you have let 
this hearing go on. I know we have one more person who wants to 
ask a question. Mr. Parker, we do have a period of time during 
which people who get out of prison are tested for drugs? We do 
not have any way to test them for guns that may be in the home. 
Thank you very much, Mr. Chairman.
    Chairman Davis. Thank you. Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman.
    To everyone here, I want to apologize to all of you for the 
disparaging remarks made by my colleagues to the first panel. I 
think that both our Mayor here in Washington, DC, and our 
police chief, Mr. Ramsey, have done an honorable job in trying 
to protect the citizens of this district. I think you heard him 
say if we could combine--I think it was Mr. Lott who said you 
have more law enforcement officers here than anywhere in the 
country, and that is true, but they have their responsibilities 
and their assignments. If they could all work on street crime 
and, as the chief said, answer the call when it comes in to 
911, we probably would see crime go flat.
    Let me say this, I am very, very sensitive to guns in homes 
because my cousin, 6 years old, was the first victim of a 
loaded gun. It was in his house, somebody had it in his house, 
the young man who shot him, and here comes little Leonard 
looking in the screen window and the 14-year-older said, let me 
show you how this gun works. My aunt, his aunt was upstairs and 
she heard the gunshot and ran down and he was still quivering 
with his brain shot out. So ever since then, I do not want guns 
in any home.
    I want Mr. Lott to tell me how lifting this ban against 
guns will stop the drive-by shooters; how lifting this ban 
against guns will protect the innocent on the streets. I see it 
every day. I speak of what I know, not what I am experiencing 
here in Washington. I just want to know how by putting guns in 
the hands of law-abiding citizens, you are going to restrict 
them to protecting their homes? How are you going to stop the 
violence that comes from a gun when it is on the street? Can 
you respond.
    Mr. Lott. Yes, guns do make it easier for bad things to 
happen. But they also make it easier for people to protect 
themselves to prevent bad things from happening. Criminals like 
to go after victims that they perceive as being relatively 
weak.
    Ms. Watson. Reclaiming my time. Are you saying that we 
should arm everyone with a gun and let us have these shootouts? 
Suppose the person who is coming to do harm to a home runs on 
the street. Should the homeowner be allowed to run out there 
and shoot him, when we have traffic, when we have children 
coming from schools? If we lift the ban against guns, how do we 
control their use when they are on the streets? And I am going 
to give you another question that you can respond to.
    Mr. Lott. Am I going to be able to answer this one?
    Ms. Watson. Let me just finish with my second question and 
then you can respond.
    Chairman Davis. But we do not control the guns now. That is 
one of the problems. You have the laws, but that is why we have 
had some of the issues. But go ahead, Ms. Watson.
    Ms. Watson. Let me reclaim my time and then you can respond 
to both. They reference the second amendment. I have read it 
over and over again. I was on the judiciary committee in my 
State of California for 17 years and the NRA had a seat in 
those chambers. I have looked at the second amendment. Is the 
word ``militia'' in that?
    Mr. Lott. You would like me to answer both questions now?
    Ms. Watson. Yes. Is the word ``militia'' in there, yes or 
no?
    Mr. Lott. Yes.
    Ms. Watson. OK. And I have interpreted the second amendment 
as saying in regards to a militia, citizens have the right to 
bear arms. I asked professors at Harvard and all around and 
said would you interpret this for me, and it arguably states 
that it is related to a militia. So tell me in response, how do 
you read the second amendment? And then also tell me how you 
see repealing this law that bans guns will make people in this 
city safe?
    Mr. Lott. OK, and I will take them in the order you want. I 
am not a lawyer. I have taught at law schools; I have taught at 
the University of Chicago Law School, and I was at Yale as a 
research scholar for a couple of years. I can tell you what 
those scholars who look at this tell me, and basically it is 
that there is a clause there that says the ``right of the 
people,'' and the other parts of the Constitution that refer to 
the right of the people mean it as an individual right, whether 
you are talking about the first or the 14th amendment. And that 
is the second part of the clause there in the second amendment. 
So that is basically my knowledge of the issue.
    Now on the other question you are asking, I feel more 
knowledgeable to try to talk about. And that is, the concerns 
that you raise are concerns that have been addressed over and 
over again in States that have right to carry laws. You are 
talking about people carrying guns outside their homes. You 
have 37 States, including Virginia next door here, that allow 
citizens, with certain basis requirements, to go and carry 
concealed handguns. You have another nine States that have more 
restrictive rules but still also, including California, still 
allow some citizens to carry concealed handguns. A county like 
Orange County, which obviously is not the same as Los Angeles, 
issues a lot of permits.
    The types of concerns that you are raising about people 
acting irresponsibly is just not something you observe. These 
people lose their permits for any reason, in hundreds or 
thousands of 1 percentage point, and most of those times are 
due to something like people accidentally carrying a gun into a 
restricted area like an airport. You can go to Web sites for 
the Department of Public Safety with Texas, or the Secretary of 
State in Florida, they have very detailed data on their Web 
sites on how many citizens have been given permits, and the 
rate at which they have lost them for different types of 
reasons.
    For example in Florida, you are talking about over 800,000 
people have been granted permits since permits started being 
granted in October 1987, and over that period of time you have 
had something like 152 have lost their permits for any type of 
firearms related violation, and virtually all of those have 
been for one type of violation, and that is carrying a gun 
accidentally into a restricted area like an airport or a 
school. Not that those people are causing any harm or 
representing any threat, when you have that many people over a 
long 20 year period of time you are going to have some hundreds 
of 1 percent which are going to forget every once in awhile 
when they are in a hurry that they have the gun with them. That 
is basically the type of case that you have there.
    Ms. Watson. My time is up. Thank you, Mr. Chairman.
    Chairman Davis. Thank you, Ms. Watson. I want to thank the 
panel.
    Let me ask Mr. Lott just one last question. From your 
observation, if anybody else wants to answer also, when you had 
conceal and carry laws in States, has there been a rise in gun 
violence?
    Mr. Lott. No. It has gone down. In fact, you have seen an 
even bigger drop in gun violence than you have seen drops in 
violent crime generally. Each additional year that these laws 
existed.
    Chairman Davis. How do you explain that?
    Mr. Lott. Well I think what you see happening is that 
criminals, if they come across somebody who has a gun, their 
desire is to leave the area; go and live another day and try to 
get another victim.
    But I think what is happening here is criminals do not know 
until they actually go and attack somebody whether that person 
is going to be able to defend themselves or not, and that goes 
to protect individuals who would never even think of carrying a 
concealed handgun. You have also seen drops in deaths of police 
officers after these types of laws have been done, in part I 
think it is because you see fewer criminals carrying guns. They 
realize the types of examples that the chief was giving earlier 
about what happens if you run into a situation where a criminal 
has a gun and the victim has a gun.
    There is a big difference when the criminal starts to use a 
gun, OK? He would rather not have to get into a gun fight 
because that is a murder held to you or something like that. 
You look at the clearance rates, he was mentioning the 
clearance rates in D.C. for murder would be about 50 percent, 
that is much lower than the clearance rates for other types of 
crime. So criminals respond to the fact that they not only face 
a higher probability of getting caught once they go and commit 
a crime like murder, but also the penalties that they face are 
also much greater.
    Chairman Davis. Thank you very much.
    Let me thank all of our witnesses. It has been a very 
useful discussion. I think we have been able to get all the 
perspectives out here as Congress considers this. This has been 
very, very helpful to us. I just want to thank everybody. We 
have differences of opinion, I respect all and I understand 
where everybody is coming from on this, and it has certainly 
crystallized it for me. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 7:03 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Jon C. Porter, Hon. Diane 
E. Watson and additional information submitted for the hearing 
record follows:]

[GRAPHIC] [TIFF OMITTED] T2473.074

[GRAPHIC] [TIFF OMITTED] T2473.075

[GRAPHIC] [TIFF OMITTED] T2473.076

[GRAPHIC] [TIFF OMITTED] T2473.077

[GRAPHIC] [TIFF OMITTED] T2473.078

[GRAPHIC] [TIFF OMITTED] T2473.079

[GRAPHIC] [TIFF OMITTED] T2473.080

                                 <all>

</pre></body></html>
